APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Supreme Court of
California
(April 10, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeal, in the
Court of Appeal of the State of
California, Fourth Appellate District,
Division One
(September 18, 2018) . . . . . . . . . . App. 3
Appendix C Judgment in the Superior Court of the
State of California for the County of
San Diego, Central Division
(December 23, 2016) . . . . . . . . . . App. 59
Appendix D U.S. Const. Amend. 5 . . . . . . . . . App. 89
Cal. Const., Art. I, § 19 . . . . . . . . App. 89
Appendix E Excerpts of Respondents’ Brief and
Cross-Appellants’ Opening Brief in the
Court of Appeal of the State of
California, Fourth Appellate District,
Division One
(November 3, 2017). . . . . . . . . . . App. 92

App. 1

APPENDIX A
IN THE SUPREME COURT OF CALIFORNIA
En Banc
S252217
Court of Appeal, Fourth Appellate District,
Division One - No. D071670
[Filed April 10, 2019]
________________________________
FRANCIS A. BOTTINI, JR., et al., )
Plaintiffs and Appellants,
)
)
v.
)
)
CITY OF SAN DIEGO et al.,
)
Defendants and Appellants.
)
________________________________ )
Review of the above-captioned matter is dismissed
as improvidently granted. (Cal. Rules of Court, rule
8.528(b).)
Cantil-Sakauye
Chief Justice
Chin
Associate Justice

App. 2
Corrigan
Associate Justice
Liu
Associate Justice
Cuéllar
Associate Justice
Kruger
Associate Justice
Graban
Associate Justice

App. 3

APPENDIX B
CERTIFIED FOR PUBLICATION
COURT OF APPEAL,
FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
D071670
(Super. Ct. No. 37-2013-00075491-CU-WM-CTL)
[Filed September 18, 2018]
________________________________
FRANCIS A. BOTTINI, JR. et al., )
)
Plaintiffs and Appellants,
)
)
v.
)
)
CITY OF SAN DIEGO et al.,
)
)
Defendants and Appellants.
)
________________________________ )
APPEALS from a judgment of the Superior Court of
San Diego County, Katherine A. Bacal, Judge.
Affirmed.
Bottini & Bottini, Albert Y. Chang and Yury A.
Kolesnikov for Plaintiffs and Appellants.

App. 4
Office of the City Attorney, Mara W. Elliott, City
Attorney, and Carmen A. Brock, Deputy City Attorney,
for Defendants and Appellants.
Francis A. Bottini, Jr., Nina M. Bottini, and the
Bernate Ticino Trust dated March 9, 2009, Trust 3 (the
Bottinis) applied to the City of San Diego for a coastal
development permit (CDP) to construct a single-family
home on a vacant lot in La Jolla. City staff determined
that the Bottinis’ proposed construction project is
categorically exempt from environmental review under
the California Environmental Quality Act (CEQA; Pub.
Resources Code, § 21000 et seq.),1 but the City Council
of San Diego (City Council; together with the City of
San Diego, the City) reversed that determination. In
reaching its decision, the City Council found that full
environmental review is necessary because the Bottinis
had removed a 19th century cottage from the lot on
which they planned to build their residence shortly
before they applied for a CDP. The City itself had
previously voted against designating that cottage as a
historical resource, declared that the cottage was a
public nuisance, and authorized the Bottinis to
demolish the cottage. Nevertheless, the City
Council—after the cottage’s demolition—declared the
cottage “historic,” concluded that the cottage’s
demolition must be considered part of the Bottinis’
project for purposes of CEQA, and found that there was
a reasonable possibility that CEQA’s “historical
resources” and “unusual circumstances” exceptions

1

All further statutory references are to the Public Resources Code,
unless otherwise noted.

App. 5
applied to the Bottinis’ construction project, thus
requiring full environmental review.
In response to the City Council’s ruling, the Bottinis
filed a petition for a writ of administrative mandamus
seeking to compel the City Council to set aside its
decision, as well as a complaint for damages against
the City, based on alleged violations of the takings, due
process, and equal protection clauses of the California
Constitution. The City moved for summary judgment
on the Bottinis’ constitutional causes of action.
The court granted the Bottinis’ petition for a writ of
administrative mandamus and ordered the City
Council to set aside its determination that the Bottinis’
proposed construction project requires environmental
review. Specifically, the court concluded that the
demolition of the cottage is not a component of the
Bottinis’ construction project and, as a result, the City
Council’s determination that the project is not
categorically exempt from CEQA review lacked
substantial evidentiary support. The court also granted
the City’s motion for summary judgment on the
Bottinis’ constitutional claims.
We conclude that the trial court properly granted
the Bottinis’ petition for a writ of administrative
mandamus because the demolition of the cottage that
previously existed on the Bottinis’ property is not a
component of the Bottinis’ residential construction
project for purposes of CEQA. Rather, the cottage was
demolished due to the City’s determination that the
cottage was a public nuisance in need of
abatement—an event that occurred before the Bottinis
applied for a CDP. We further conclude that the trial

App. 6
court properly granted the City’s motion for summary
judgment. Accordingly, we affirm the judgment in full.
I.
CEQA OVERVIEW
CEQA and its implementing regulations “embody
California’s strong public policy of protecting the
environment.” (Tomlinson v. County of Alameda (2012)
54 Cal.4th 281, 285.) “ ‘The basic purposes of CEQA are
to: [¶] (1) Inform governmental decision makers and
the public about the potential, significant
environmental effects of proposed activities.
[¶] (2) Identify ways that environmental damage can be
avoided or significantly reduced. [¶] (3) Prevent
significant, avoidable damage to the environment by
requiring changes in projects through the use of
alternatives or mitigation measures when the
governmental agency finds the changes to be feasible.
[¶] [and] (4) Disclose to the public the reasons why a
governmental agency approved the project in the
manner the agency chose if significant environmental
effects are involved.’” (Id. at pp. 285-286.)
In furtherance of these goals, CEQA establishes a
three-tier environmental review process. The first step
is jurisdictional and requires a public agency to
determine whether a proposed activity is a “project.”
Under CEQA, a project is defined as “an activity which
may cause either a direct physical change in the
environment, or a reasonably foreseeable indirect
physical change in the environment, and . . . [¶] . . . [¶]
. . . that involves the issuance to a person of a lease,
permit, license, certificate, or other entitlement for use

App. 7
by one or more public agencies.” (§ 21065.) A project
may encompass “several discretionary approvals by
governmental agencies” and does not mean “each
separate governmental approval.” (Guidelines, § 15378,
subd. (c).)2 Thus, “CEQA’s requirements [can]not [be]
avoided by chopping a proposed activity into bite-sized
pieces which, when taken individually, may have no
significant adverse effect on the environment.” (POET,
LLC v. State Air Resources Bd. (2017) 12 Cal.App.5th
52, 73.) If a proposed activity is a project, the agency
proceeds to the second step of the CEQA review
process.
At the second step, the agency must “decide
whether the project is exempt from the CEQA review
process under either a statutory exemption [citation] or
a categorical exemption set forth in the CEQA
Guidelines [citations].” (California Building Industry
Assn. v. Bay Area Air Quality Management Dist. (2015)
62 Cal.4th 369, 382 (Bay Area Air).) Examples of
categorical exemptions include the operation, repair,
maintenance, permitting, leasing, licensing, or minor
alteration of existing structures (the Class 1 categorical
exemption; Guidelines, § 15301); minor alterations in
the condition of land, water, or vegetation (the Class 4
categorical exemption; id., § 15304); and—of particular
relevance to this appeal—the construction of a
single-family residence (the Class 3 categorical
exemption; id., § 15303).

2

All future references to Guidelines are to the Guidelines for
Implementation of CEQA (Cal. Code Regs., tit. 14, § 15000 et seq.).

App. 8
Unlike statutory exceptions, categorical exemptions
are subject to exceptions. For instance, the Class 3
categorical exemption that is at issue in this appeal
does not apply—or, stated differently, CEQA review
may apply—if a project “may cause a substantial
adverse change in the significance of a historical
resource.” (Guidelines, § 15300.2, subd. (f); Pub.
Resources Code, § 21084, subd. (e).) For purposes of
this decision, we will refer to this as the “historical
resource” exception. The Class 3 categorical exemption
also does not apply if “there is a reasonable possibility
that the activity will have a significant effect on the
environment due to unusual circumstances.”
(Guidelines, § 15300.2, subd. (c).) This exception is
commonly referred to as the “unusual circumstances”
exception.
If a project is categorically exempt and does not fall
within an exception, “ ‘it is not subject to CEQA
requirements and “may be implemented without any
CEQA compliance whatsoever.” ’ ” (County of Amador
v. El Dorado County Water Agency (1999) 76
Cal.App.4th 931, 966.) But if a project is not exempt,
the agency must then “decide whether the project may
have a significant environmental effect.” (Bay Area Air,
supra, 62 Cal.4th at p. 382.) Under CEQA, a project
that causes a substantial adverse change in the
significance of an historical resource is considered to be
a project that significantly impacts the environment.
(§ 21084.1; see § 21060.5 [defining the environment as
“the physical conditions which exist within the area
which will be affected by a proposed project,” including
“objects of historic . . . significance.”].)

App. 9
Finally, if the project may have a significant effect
on the environment, the agency must proceed to the
third step of the process and prepare an environmental
impact report (EIR). (§§ 21080, subd. (d), 21082.2,
subd. (d), 21100, subd. (a), 21151, subd. (a).)
At each stage of the CEQA review process, the
public agency must evaluate the environmental impact
of a project against a measure commonly referred to as
the baseline, i.e., the environment’s state in the
absence of the project. (North County Advocates v. City
of Carlsbad (2015) 241 Cal.App.4th 94, 101 (Carlsbad);
CREED-21 v. City of San Diego (2015) 234 Cal.App.4th
488, 504 (CREED-21).) “ ‘[T]he baseline “normally”
consists of “the physical environmental conditions in
the vicinity of the project, as they exist at the time . . .
environmental analysis is commenced . . . .” ’ ”
(Carlsbad, at p. 101; see Association of Irritated
Residents v. Kern County Bd. of Supervisors (2017) 17
Cal.App.5th 708, 725 [“[T]he text of CEQA and the
Guidelines identify existing conditions as the starting
point (i.e., baseline) for determining and quantifying
the proposed project’s changes to the environment.”].)
II.
FACTUAL AND PROCEDURAL BACKGROUND
A. The Windemere and historical designation efforts
The Windemere Cottage (Windemere) was a late
Victorian-era beach bungalow in La Jolla designed by
architects Joseph Falkenhan and Irving Gill. In 1927,
the Windemere was moved from its original beachside
location to Virginia Way. The Windemere exhibited
features that were representative of early architecture

App. 10
in La Jolla, including a hipped roofline, eaves with
exposed rafters, vertical board and batten redwood
walls, and leaded, diamond-paned windows.
In 2010, the then-owner of the Windemere (the
Prior Owner) nominated the Windemere for
designation as a historical resource with the Historical
Resources Board (the Board). The Board is the
appointed body with authority over historical resources
in San Diego, including the designation of historical
sites, the establishment of historical districts, and the
review of development projects that may affect
historical resources. At the time, the Prior Owner
intended “to restore the building to its 1894 Period of
Significance.” However, in February 2011—before the
Board ruled on the Windemere’s nomination—the Prior
Owner sold the Windemere and the lot on which it was
located to the Bottinis for $1.22 million. The Prior
Owner also assigned the Bottinis her rights to the
Windemere’s historical designation application and a
property report that Legacy 106, Inc. (Legacy 106) had
prepared in support of the application.
After the sale, the Bottinis withdrew the pending
nomination and submitted a single discipline
preliminary review application to the Board to verify
whether the Windemere was eligible for historical
designation—not to pursue historical designation, but
rather, to “determine the constraints on future
development” of the property. Together with the
application, the Bottinis submitted the Legacy 106
report and an addendum that the Bottinis had solicited
to rebut the report. Based on these submissions and an
on-site visit, the Board’s staff recommended that the

App. 11
Board deny historical designation. In the staff’s view,
the Windemere had undergone too many alterations to
warrant historical designation.
In September 2011, the Board held a public hearing
to determine whether to grant the Windemere
historical status. More than a dozen speakers,
including members of the Save Our Heritage
Organization (SOHO) and the La Jolla Historical
Society (LJHS), spoke in favor of historical designation.
Nevertheless, a divided Board narrowly declined to
grant historical status to the Windemere. SOHO and
LJHS requested reconsideration of the decision, but the
Board denied the organizations’ request as untimely.
Shortly after the Board’s vote, a preservation officer
from the State Office of Historic Preservation (the
State) notified the Board that the State had received
photographs and context statements about the
Windemere and, based on these submissions, believed
that the Windemere “appear[ed] eligible” for the
California Register of Historical Resources (Register).3
The Register is “an authoritative guide in California to
be used by state and local agencies, private groups, and
citizens to identify the state’s historical resources and
to indicate what properties are to be protected, to the
extent prudent and feasible, from substantial adverse
change.” (§ 5024.1, subd. (a).) The letter did not
indicate that the State had received a nomination to
list the Windemere in the Register, nor that it had

3

The City requested judicial notice of the State’s official website,
but does not discuss the basis or purpose for its request.
Accordingly, we deny the City’s request.

App. 12
acted on any such nomination. Rather, it described the
process by which properties may be nominated and
stated that the State “encourages nominations of
properties” to the Register.
B. The demolition of the Windemere
In November 2011, the Bottinis requested that the
City’s Neighborhood Code Compliance Division (Code
Compliance) determine whether the Windemere
constituted a public nuisance. Together with their
request, the Bottinis included a report from a
structural engineering firm, which stated that the
Windemere was “uninhabitable and no persons
[should] be allowed to occupy” it. According to the
report, the Windemere’s roof, framing, and single wall
construction were incapable of supporting gravity and
seismic/wind loads, the rear porch was rotted, portions
of the residence were decayed due to age and neglect,
and the Windemere was susceptible to collapse in the
event of a minor seismic event.
The San Diego Municipal Code sets forth the
criteria by which a structure may be categorized as
“unsafe, dangerous, or substandard” and therefore,
deemed a public nuisance. (Mun. Code,
§§ 121.0402-121.0405.) If a property is found to be a
public nuisance, Code Compliance must issue a notice
of abatement to the property owner describing, among
other things, the basis of the determination and actions
that must be undertaken to abate the public nuisance.
(Id., § 121.0406.) Failure to comply with an abatement
order is punishable as a misdemeanor. (Id., §§ 12.0413,
121.0411.) The Municipal Code also establishes
procedures that apply to abatement actions involving

App. 13
designated historical resources, which require a
property owner to obtain a permit and ensure
compliance with all applicable regulations and
ordinances prior to the alteration, demolition, or
relocation of the designated historical resource. (Id.,
§ 121.0419.)
After reviewing the Bottinis’ request and conducting
an on-site visit, Code Compliance sent the Bottinis a
notice that declared the Windemere a public nuisance
for six independent reasons, including the structure’s
dilapidated state, unfitness for habitation, and
susceptibility to fire, earthquake, and wind. The notice
further stated as follows: “In order to comply with City
regulations, you are required to obtain a Demolition
Permit . . . . [¶] In order to avoid abatement action, the
Demolition Permit must be obtained and a Final
Inspection Approval secured no later than February
15, 2012.”4 The next day, the Bottinis procured a
demolition permit and promptly bulldozed the
Windemere.5 Because Code Compliance declared that
4

The parties dispute whether Code Compliance ordered the
Bottinis to obtain a demolition permit as the sole means by which
to abate the public nuisance or whether the Bottinis, in the
alternative, could have repaired the Windemere. Ultimately, we
need not resolve this factual disagreement because it is undisputed
that, at minimum, Code Compliance authorized the Bottinis to
obtain a demolition permit and the City’s Development Services
Department (Department) issued the Bottinis a demolition permit.

5

The City requested judicial notice of a video showing the
Windemere’s demolition. We deny the request, as the City appears
to be using the request as a guise to supplement the administrative
record. (Jefferson Street Ventures, LLC v. City of Indio (2015) 236
Cal.App.4th 1175, 1190.) The City also requested judicial notice of

App. 14
the Windemere was a public nuisance, the Bottinis did
not have to obtain a CDP for the demolition. (§ 30005,
subd. (b); Mun. Code § 126.0704, subd. (f).) Further, the
abatement procedures for designated historical
resources did not apply because neither the Board nor
the State had designated the Windemere a historical
resource at the time that Code Compliance rendered its
public nuisance determination.
C. The CDP process and appeals
In August 2012, the Bottinis—now the owners of a
vacant lot—applied to the Department for a CDP to
construct a single-family home on their lot. As part of
the permitting process, the La Jolla Community
Planning Association (Planning Association) reviewed
the proposed construction project. During two public
meetings, Planning Association members voiced
concerns that the Bottinis may have engaged in
improper project splitting under CEQA. Nevertheless,
the Department’s environmental staff ultimately
determined that the construction of the Bottinis’ home
was categorically exempt from CEQA review as new
residential construction on a vacant lot.
The Planning Association and LJHS appealed the
Department’s decision to the City Council, claiming
that the Department had failed to consider the “whole
of the project” and alleging that the proper project
baseline should have been set at a time before the
Bottinis demolished the Windemere. Over the course of
a video of the City Council meeting at which the demolition video
was displayed. We deny this request as unnecessary; the transcript
for that meeting is already a part of the administrative record.

App. 15
two meetings, the City Council heard testimony from
supporters and opponents of the CEQA appeals. At the
first meeting, Department staff and the deputy city
attorney informed the City Council that the Bottinis
had followed the Municipal Code “to the letter” in all
the actions that they had undertaken. Still, the City
Council deadlocked 4-4 on whether to grant the CEQA
appeals. At the second meeting, one City Council
member who had originally voted to deny the CEQA
appeals switched his vote to grant the CEQA appeals
“to get [the] item off [the City Council’s] docket and to
get the [Bottinis] out of [the] purgatory” of another tied
vote.
As a result, the City Council issued a resolution
granting the CEQA appeals and remanding the project
to the Department to reevaluate its environmental
determination with a baseline of January 2010—a date
that preceded the Bottinis’ purchase of the property. In
its resolution, the City Council concluded that the
Windemere’s “demolition should be included in the
environmental analysis” of the Bottinis’ residential
construction project. The City Council further
concluded that the project was “not categorically
exempt from environmental analysis” because two
CEQA exceptions took precedence over the categorical
exemption that governs the construction of
single-family homes. Specifically, the City Council
concluded that the redefined project (which now
included the demolition of the Windemere), with its
new baseline of January 2010 (when the Windemere
still existed), would “have a significant effect on the
environment due to unusual circumstances and may
cause a substantial adverse change in the significance

App. 16
of a historic resource” pursuant to section 15300.2,
subdivisions (c) and (f) of the CEQA Guidelines.
D. The superior court action
The Bottinis filed an action in the superior court,
requesting issuance of a peremptory writ of mandamus
directing the City to set aside its decision. In an
amended petition, the Bottinis asserted causes of
action against the City for inverse condemnation, equal
protection, and due process violations. In their inverse
condemnation cause of action, the Bottinis alleged that
the City’s CEQA determination constituted a
regulatory taking of their property because it delayed
their plans to construct a home on their property and,
as a result, required them to pay a mortgage for both
their existing home and an empty lot. In their due
process and equal protection causes of action, the
Bottinis contended that the City acted without any
rational basis and intentionally targeted the Bottinis
for disfavored treatment because they had demolished
the Windemere.
After briefing and argument, the trial court granted
the Bottinis’ petition for a peremptory writ of
mandamus. According to the court, the Bottinis’ project
is “a separate project distinct from the demolition of the
[Windemere].” The court determined that the project
baseline should be set at the point at which the
property was “an empty lot” because the “[Windemere]
had been razed pursuant to [the] demolition permit
eight months before the Bottinis submitted their
project application.” On that basis, the court found that
the City had abused its discretion in concluding that

App. 17
the project is not categorically exempt from CEQA
review.6
After further briefing and argument, the trial court
granted summary judgment for the City on the
Bottinis’ constitutional causes of action. Applying the
inverse condemnation standards that the California
Supreme Court discussed in Landgate, Inc. v.
California Coastal Com. (1998) 17 Cal.4th 1006
(Landgate), the court concluded that the City was
entitled to summary judgment on the Bottinis’ inverse
condemnation cause of action because governmental
review of a project “for compliance with CEQA is
clearly a legitimate governmental purpose.” The court
further concluded that the City was entitled to
summary judgment on the Bottinis’ equal protection
cause of action because no evidence demonstrated that
the City had “intentionally discriminated” against the
Bottinis or that the City lacked a rational basis for its
decision. Finally, the court concluded that the City was
entitled to summary judgment on the Bottinis’ due
process cause of action because the Bottinis have no
protected property interest where, as here, the decision
maker (the City) has discretion to grant or deny the
benefit at issue (the CEQA categorical exemption).
The City appealed the judgment insofar as it
granted the Bottinis’ petition for a writ of mandamus
and the Bottinis cross-appealed the judgment insofar
6

The City immediately appealed the trial court’s order granting
the Bottinis’ petition for a peremptory writ of mandamus. In an
unpublished decision, we dismissed the City’s appeal for lack of
jurisdiction. (Bottini v. City of San Diego (Jan. 26, 2016, No.
D067510).)

App. 18
as the trial court granted the City’s summary judgment
motion.
III.
ANALYSIS
A. CEQA
1. Standard of review
“ ‘ “In considering a petition for a writ of mandate in
a CEQA case, ‘[o]ur task on appeal is “the same as the
trial court’s.” [Citation.]’ . . . . Accordingly, we examine
the [agency’s] decision, not the trial court’s [decision].”
[Citation.]’ [Citations.]” (World Business Academy v.
Cal. State Lands Com. (2018) 24 Cal.App.5th 476, 491
(World Business).)
“ ‘[O]ur inquiry extends only to whether there was
a prejudicial abuse of discretion’ by the agency.
[Citation.] ‘ “Such an abuse is established ‘if the agency
has not proceeded in a manner required by law or if the
determination or decision is not supported by
substantial evidence.’ [Citations.]” [Citation.]’
[Citation.] To the extent the question presented turns
on an interpretation of CEQA, the Guidelines, or the
scope of a particular exemption, it is one of law that we
review de novo. [Citation.]” (World Business, supra, 24
Cal.App.5th at p. 492.)
2. Application
This case turns largely on the propriety of the
parties’ dueling definitions of the project that is the
subject of this dispute. The City, on the one hand,
contends that the City Council correctly defined the

App. 19
project to include the demolition of the Windemere and
properly set a baseline of January 2010, before the
Windemere was demolished. Framed as such, the City
claims that the City Council accurately determined
that the project would result in a substantial adverse
change in the significance of an historical resource (the
Windemere) and that the project is therefore not
categorically exempt from CEQA review. The Bottinis,
on the other hand, contend that the project should be
defined to include only the construction of their
residence and claim that the baseline should be set in
August 2012, when they applied for a CDP. According
to the Bottinis, the City Council erred by considering
the Windemere’s demolition as part of the project
because the City itself had authorized the Bottinis to
demolish the Windemere as a public nuisance, which
they did several months before they submitted their
CDP application.
Based on our review of the administrative record,
we agree with the Bottinis and conclude that the City
Council abused its discretion by determining that the
project encompassed the demolition of the
Windemere—an event that took place before the
Bottinis filed their application to construct a residence.
We also conclude that the City Council abused its
discretion by setting a baseline in January 2010, a full
year before the Bottinis acquired the property on which
they planned to construct their residence. As we will
discuss post, the City’s issuance of a permit authorizing
the demolition of the Windemere served a public safety
objective untethered to the construction of the Bottinis’
residence and, in any event, fell outside of the CEQA
review process altogether because it was ministerial.

App. 20
Further, at the time the Bottinis filed their request for
a CDP, the Bottinis’ property was a vacant lot. Under
CEQA, that environmental condition accurately reflects
the baseline for the Bottinis’ construction project, not
an environmental condition that presumes the
continued existence of a cottage that, in reality, no
longer existed at the time the Bottinis filed their
application.
In short, the only project that remained for purposes
of CEQA after the City’s Code Compliance Division
authorized the Bottinis to demolish the Windemere
was the construction of a single-family residence on a
vacant lot—a categorically exempt act under CEQA.
a. Applicable project definition and baseline
As noted, the San Diego Municipal Code establishes
procedures that Code Compliance must follow to
identify unsafe, dangerous, or substandard structures,
and to order their abatement “to protect and preserve
the safety of the citizens and communities where these
structures are located.” (Mun. Code, § 121.0401, subd.
(a).) These procedures require Code Compliance to
determine whether a given structure is unsafe,
dangerous, or substandard, according to a detailed set
of criteria. (Id., §§ 121.0403-121.0405). In this case,
Code Compliance concluded that the Windemere
constituted a public nuisance for six independent
reasons under those criteria and, on that basis,
authorized the Bottinis to obtain a ministerial permit
to demolish the Windemere.
The City contends that we should treat the
Windemere’s demolition as part of the project under

App. 21
review because, in the City’s view, the public nuisance
determination that resulted in the issuance of a
demolition permit was a “faux ‘emergency’ “ that the
Bottinis “cajoled,” “pressur[ed],” and “coerc[ed] Code
Compliance” into making. We reject the City’s
characterizations of the public nuisance determination,
for a number of reasons.
As an initial matter, this CEQA action is not the
appropriate forum to launch a retroactive, collateral
attack on the validity of Code Compliance’s public
nuisance determination. That public nuisance decision
is final and is not the subject of this CEQA appeal. (A
Local & Regional Monitor v. City of Los Angeles (1993)
16 Cal.App.4th 630, 647-649 [rejecting objector’s
attempt to use an appeal arising from the certification
of an EIR as a vehicle to collaterally attack the validity
of the City’s general plan].)
Even if this were the appropriate forum to rehash
the merits of the public nuisance determination, the
City has directed us to no evidence—let alone
substantial evidence—that calls into question Code
Compliance’s conclusion that the Windemere was a
bona fide public nuisance. In fact, the City does not
even attempt to articulate why it believes the public
nuisance determination was incorrect. Instead, the City
criticizes the Bottinis for removing various
architectural features from the Windemere, which, in
the City’s words, “weaken[ed] its structural integrity.”
But the City does not accuse the Bottinis of violating
any state laws or Municipal Code provisions by
purportedly removing these architectural features. On
the contrary, the City expressly concedes that the

App. 22
Bottinis were not required to obtain a building permit
to engage in the conduct that the City alleges. Further,
in arguing that the structural integrity of the
Windemere was in fact “weaken[ed],” the City
undercuts its own unsupported claim that the
Windemere never should have been declared a public
nuisance in the first place.
The City also has not directed us to any evidence to
support its claim that the Bottinis “strong-armed” Code
Compliance into making an unfounded public nuisance
determination. On the contrary, when questioned at a
City Council meeting, the deputy city attorney agreed
with the Department’s assessment that the Bottinis
had followed the Municipal Code “to the letter” by
asking the Board to determine whether the Windemere
was historical, notifying Code Compliance that the
Board had concluded that the Windemere was not
historical, and requesting that Code Compliance make
a public nuisance determination. Under these
circumstances, we conclude that there is no substantial
evidence that undercuts Code Compliance’s public
nuisance determination or the legitimacy of the actions
that the Bottinis undertook in connection with that
determination.
We recognize, of course, that the public nuisance
determination and the Windemere’s subsequent
demolition necessarily affected the conditions of the
property on which the Bottinis later requested
permission to construct their residence. However, the
ministerial demolition permit furthered a goal
unrelated to the construction of the Bottinis’
residence—the protection and safety of the City’s

App. 23
citizens. (Mun. Code, § 121.0401, subd. (a).) Indeed, the
public nuisance determination itself states that Code
Compliance visited and analyzed the property “to
determine the condition of the structure with regards
to fire, life, health and safety regulations of the City of
San Diego.” Further, the determination did not
reference or authorize, let alone depend on, the
subsequent issuance of a building permit to the
Bottinis. (Adams Point Pres. Soc’y v. City of Oakland
(1987) 192 Cal.App.3d 203, 207 [demolition was a
separate project than the anticipated construction of a
building on the demolition site because the demolition
permit was not dependent on the issuance of a building
permit].) Thus, the public nuisance determination
confirms that the demolition permit served a purpose
distinct from, and was not a part of, the project under
review. (Banning Ranch Conservancy v. City of
Newport Beach (2012) 211 Cal.App.4th 1209, 1226
[ordinances were separate projects because “[t]hey
serve[d] different purposes”].)
Notwithstanding the public safety goals that the
demolition permit advanced, the City contends that we
still must treat the Windemere’s demolition and the
construction of the Bottinis’ residence as a single
cohesive project because the Bottinis purportedly knew
before the demolition that they intended to construct a
residence on the lot after the demolition. The City
argues, for instance, that the construction of the
Bottinis’ residence was not a mere “afterthought,” but
rather, the Bottinis’ goal when they purchased the
property. According to the City, we would permit the
Bottinis to violate the rule against segmentation of
projects if we were to overlook the Bottinis’ intent to

App. 24
construct a residence on the property. (Guidelines,
§ 15378, subd. (a) [project includes “the whole of an
action”].)
Assuming that the Bottinis intended to construct a
residence on the lot when they purchased it, that fact
does not change the result of this case. That is because
the demolition permit that Code Compliance
authorized the Bottinis to obtain was, as all parties
agree, ministerial. Whereas CEQA applies to certain
nonexempt discretionary acts, it specifically excludes
ministerial acts from its reach. (§ 21080, subd. (b)
[excluding “[m]inisterial projects proposed to be carried
out or approved by public agencies”].) This exclusion of
ministerial acts “recognizes that unless a public agency
can shape the project in a way that would respond to
concerns raised in an EIR, or its functional equivalent,
environmental review would be a meaningless
exercise.” (Mountain Lion Foundation v. Fish & Game
Com. (1997) 16 Cal.4th 105, 117.) Because the
demolition permit that Code Compliance authorized
the Bottinis to obtain was ministerial, it fell outside of
CEQA’s scope altogether and the demolition that
occurred as a result was not subject to environmental
review, either then or now. (Friends of Juana Briones
House v. City of Palo Alto (2010) 190 Cal.App.4th 286,
292-293 [rejecting argument that CEQA required
consideration of both demolition permit and anticipated
construction because both projects were ministerial].)
Our decision in CREED-21 is particularly analogous
to the case at hand. In CREED-21, the City of San
Diego planned to replace storm drain pipes, construct
storm drain infrastructure, and revegetate the affected

App. 25
area. (CREED-21, supra, 234 Cal.App.4th at p. 495.)
The storm drain system failed before the City began its
work, so the City constructed a new storm drain system
under an emergency CEQA exemption. (Ibid.) After the
emergency repair was complete, the City concluded
that revegetation was the only act that required an
environmental assessment, given that it was the sole
component of the original project that had not been
completed. (Id. at pp. 498-499.) In an appeal arising
from a writ proceeding, we agreed. Specifically, we
concluded that the work that the City had anticipated
as part of its initially-defined project—the repair of the
storm drain pipes and the construction of
infrastructure—was “exempt from CEQA’s
environmental review provisions” due to the emergency
permit, and “therefore no environmental review of that
work was required under CEQA either before or after
it was completed.” (Id. at p. 506.)
The same is true here. The Bottinis very well may
have purchased the Windemere and the lot on which it
was located with the intention of constructing a new
residence on that lot. Indeed, the Bottinis acknowledge
that they filed a single discipline preliminary review
application with the Board shortly after purchasing the
property with the express purpose of “determin[ing] the
constraints on future development” of the property.
However, the City’s own historical designation and
nuisance abatement provisions enabled the Bottinis to
obtain a ministerial permit to demolish the existing
structure on their property and pave the way for future
construction—provisions that the Bottinis followed “to
the letter,” according to the deputy city attorney. It is
because of these Municipal Code provisions, as well as

App. 26
the City’s sanctioning of the Bottinis’ conduct at each
step of the process, that an intervening CEQA-exempt
event—the City’s issuance of a ministerial demolition
permit—occurred. As in CREED-21, this intervening
event took place “outside of CEQA’s requirements and
therefore no environmental review of that completed
work is required.”7 (CREED-21, supra, 234 Cal.App.4th
at p. 506.)
Our conclusion that the project in this case consists
solely of the construction of the Bottinis’ residence
comports with decisions from our court that have
recognized that “CEQA generally applies prospectively
to activities to be carried out in the future and not
retrospectively to work already completed.” (CREED-21,
supra, 234 Cal.App.4th at pp. 502-503, italics added;
Riverwatch v. County of San Diego (1999) 76
Cal.App.4th 1428, 1452 (Riverwatch) [“We believe that
in general preparation of an EIR is not the appropriate
forum for determining the nature and consequences of
prior conduct of a project applicant.”].) Indeed, the
baseline for purposes of CEQA normally reflects the
environmental conditions as they exist “at the time . . .
environmental analysis is commenced” precisely

7

The City tries to distinguish this case from CREED-21 on the
basis that the intervening event in CREED-21 was “a sudden,
unexpected occurrence,” whereas the nuisance determination here
purportedly was not. But in CREED-21 we did not base our
holding on the “sudden” and “unexpected” nature of the
intervening event. Rather, we based our decision on the fact that
the intervening event was exempt from CEQA. So, too, is the
ministerial permit at issue in this case. (§ 21080, subd. (b).)
Accordingly, the City’s attempt to distinguish CREED-21 is
unavailing.

App. 27
because a baseline that reflects current conditions—
rather than past conditions—enables a lead agency to
more accurately assess a project’s likely environmental
impact before the project takes place. (Carlsbad, supra,
241 Cal.App.4th at p. 101; see CREED-21, at pp.
506-507.)
California courts have applied this principle in a
variety of circumstances, even when a project
applicant’s past conduct may have violated the law or
escaped environmental review. (Riverwatch, supra, 76
Cal.App.4th at pp. 1451-1453 [measure of a project’s
environmental impact should not include the
applicant’s past unauthorized activities in the region];
Citizens for East Shore Parks v. State Lands Com.
(2011) 202 Cal.App.4th 549, 561 [baseline “must
include existing conditions, even when those conditions
have never been reviewed and are unlawful”]; Fat v.
County of Sacramento (2002) 97 Cal.App.4th 1270,
1279-1280 [baseline for pilots’ conditional use permit
application was the year in which application was filed,
even though the airport had expanded without CEQA
review for decades]; Bloom v. McGurk (1994) 26
Cal.App.4th 1307, 1314-1316 [applying CEQA
exemption to disposal facility’s request for a waste
permit, even though there was no record that the
facility’s prior activities had ever gone through an
environmental review].) Insofar as the City Council in
this case set a baseline in the past to measure the
environmental impacts flowing from the Bottinis’ prior
conduct, these decisions demonstrate that the City’s
decision was legally erroneous.

App. 28
Reasonable minds may differ as to whether the
Board should have granted historical designation to the
Windemere. But the Board did not do so. Reasonable
minds may also differ as to whether the Bottinis should
have attempted to repair the Windemere, rather than
asking Code Compliance to declare it a public nuisance.
But they did not. And Code Compliance did in fact
authorize the Bottinis to obtain a ministerial
demolition permit for the Windemere. While the City
may wish to turn back the clock and undo these
decisions, that goal cannot be accomplished in this case
by simply redefining the Bottinis’ project and setting a
CEQA baseline in the past, to a time when the
Windemere still existed. The fact is that the Bottinis’
project for purposes of CEQA consists solely of the
construction of a single-family residence and the proper
baseline for that project is the physical environmental
condition of the lot as it existed at the time the Bottinis
filed their request for a CDP. In concluding otherwise,
the City Council abused its discretion.
b. Class 3 categorical exemption
Because the City Council improperly defined the
project and baseline, the City Council also erred in
concluding that the project is not categorically exempt
from environmental analysis under CEQA. The CEQA
Guidelines categorically exempt the construction of a
single-family residence from review under CEQA.
(§ 15303, subd. (a); Association for Protection etc.
Values v. City of Ukiah (1991) 2 Cal.App.4th 720, 727
(Ukiah) [“Guidelines section 15303 lists single-family
residences as an example of a class 3 categorical
exemption.”].) The project in this case consists of the

App. 29
construction of the Bottinis’ proposed residence, with
baseline conditions reflecting a vacant lot. Accordingly,
the Class 3 categorical exemption squarely applies,
subject to any applicable exceptions that might nullify
the categorical exemption.
From our review of the administrative record, we
discern no exception that would take precedence over
the Class 3 categorical exemption. In the proceedings
before the City Council, the Council concluded that the
historical resource exception applies. That exception
provides as follows: “A categorical exemption shall not
be used for a project which may cause a substantial
adverse change in the significance of a historical
resource.” (Guidelines, § 15300.2.) However, with a
properly defined project and baseline, substantial
evidence does not support the City Council’s conclusion.
Assuming that the Windemere did in fact constitute
a historic resource under CEQA,8 the Bottinis’

8

CEQA establishes three types of historical resources—
(1) mandatory historical resources, which include resources listed
in, or determined to be eligible for listing in, the Register;
(2) presumptive historical resources, which include resources in a
local register of historical resources or identified as significant in
surveys of historical resources; and (3) discretionary historical
resources, which include resources that lead agencies in their
discretion consider to be historical, even if the resources have been
denied listing or have not yet been listed on a local register. (Valley
Advocates v. City of Fresno (2008) 160 Cal.App.4th 1039,
1051-1062; § 21084.1; Guidelines, § 15064.5, subd. (a).) On appeal,
the City contends—and the Bottinis dispute—that the Windemere
constituted a discretionary historical resource. In light of our
conclusion that the properly defined project, with a proper
baseline, could not adversely affect the Windemere, it is

App. 30
construction project will not cause a substantial
adverse change in the Windemere’s significance. (San
Lorenzo Valley Community Advocates for Responsible
Education v. San Lorenzo Valley Unified School Dist.
(2006) 139 Cal.App.4th 1356, 1392 [CEQA exception
did not apply because “[a] change in physical conditions
is a necessary predicate for a finding of environmental
impact.”], italics added.) Rather, as discussed ante, by
the time the Bottinis applied for a CDP in August 2012,
the Windemere had already been demolished pursuant
to Code Compliance’s December 2011 demolition
authorization.
The City Council also concluded that the “unusual
circumstances” exception applied. That exception
precludes the application of a categorical exemption
when a project will “have a significant effect on the
environment due to unusual circumstances.”
(Guidelines, § 15300.2, subd. (c).) The “unusual
circumstances” exception typically requires a showing
that: (1) the project has some feature that distinguishes
it from others in the exempt class, such as its size or
location and (2) there is a reasonable possibility of a
significant effect on the environment due to that
unusual circumstance.9 (World Business, supra, 24
unnecessary for us to resolve whether the Windemere was a
discretionary historical resource.
9

The City takes contradictory and confusing positions in its
appellate briefing regarding the City Council’s reliance on the
“unusual circumstances” exception. In its opening brief, the City
argues that the “City Council was justified in its conclusion [that
the] Bottinis’ self-serving actions present an ‘unusual
circumstances’ [sic] barring the use of a categorical exemption.”

App. 31
Cal.App.5th at p. 498.)
Neither the City Council’s resolution nor the City’s
appellate briefing has identified any distinguishing or
unusual feature presented by the Bottinis’ construction
project. The City points to the demolition of the
Windemere as a distinguishing or unusual feature
warranting application of the “unusual circumstances”
exception. However, for the reasons just discussed, the
demolition of the Windemere is not part of the project
at issue. Accordingly, the Bottinis’ project—the
construction of a single-family home—has no features
that distinguish it from others in the exempt class, and
substantial evidence does not support the City
Council’s application of the “unusual circumstances”
exception. (Ukiah, supra, 2 Cal.App.4th at p. 736 [the
“potential environmental impacts” were “normal and
common considerations in the construction of a
single-family residence” and did not constitute unusual
circumstances].)
c. Conclusion
For the foregoing reasons, we conclude that the
“historical resources” and “unusual circumstances”
exceptions do not apply to the Bottinis’ residential
construction project for purposes of CEQA. Further, the
City does not contend that any other CEQA exception
applies. Accordingly, CEQA’s Class 3 categorical

But the City claims in its reply brief that the “City Council did not
rely on the ‘unusual circumstance’ exemption to grant the
appeals.” We have reviewed the administrative record and can
confirm that the City Council did in fact conclude that the
“unusual circumstances” exception applies to the Bottinis’ project.

App. 32
exemption applies to the Bottinis’ residential
construction project and the trial court’s judgment is
affirmed insofar as it granted the Bottinis’ petition for
a peremptory writ of mandamus.
B. The Bottinis’ constitutional causes of action
Based on the City’s decision to grant the CEQA
appeals and the residential construction delays
resulting from that decision, the Bottinis also alleged
three causes of action against the City for violations of
the California Constitution’s takings, equal protection,
and due process clauses. The trial court granted
summary judgment in favor of the City on all three
causes of action. For the reasons discussed post, we
agree that no triable issue of material fact exists as to
the Bottinis’ constitutional causes of action. We
therefore affirm the trial court’s summary judgment
ruling.
1. Standard of review
Summary judgment may be granted only if there is
no triable issue of material fact and the moving party
is entitled to judgment as a matter of law. (Code Civ.
Proc., § 437c, subd. (c).) A defendant moving for
summary judgment has the burden of presenting
evidence that negates an element of plaintiff’s claim or
evidence that the plaintiff does not possess and cannot
reasonably expect to obtain evidence needed to support
an element of the claim. (Miller v. Department of
Corrections (2005) 36 Cal.4th 446, 460; Saelzler v.
Advanced Group 400 (2001) 25 Cal.4th 763, 768.) If the
defendant meets this burden, the burden shifts to the
plaintiff to set forth “specific facts” showing that a

App. 33
triable issue of material fact exists. (Code Civ. Proc.,
§ 437c, subd. (p)(2).)
We review de novo the trial court’s grant of
summary judgment. (Hughes v. Pair (2009) 46 Cal.4th
1035, 1039.) We take the facts from the record that was
before the trial court when it ruled on the motion and
consider all the evidence set forth in the moving and
opposing papers, except those to which objections were
made and sustained. (Lonicki v. Sutter Health Central
(2008) 43 Cal.4th 201, 206; § 437c, subd. (c).) The court
does not weigh the parties’ evidence; rather, it must
consider all the evidence and “all inferences reasonably
deducible from the evidence.” (§ 437c, subd. (c); Reid v.
Google, Inc. (2010) 50 Cal.4th 512, 540-541; Aguilar v.
Atlantic Richfield Co. (2001) 25 Cal.4th 826, 856.)
However, “any doubts as to the propriety of granting a
summary judgment motion should be resolved in favor
of the party opposing the motion.” (Reid, at p. 535;
Miller v. Bechtel Corp. (1983) 33 Cal.3d 868, 874.)
2. Inverse condemnation
a. Legal standard
Both the United States and California Constitutions
guarantee real property owners “just compensation”
when their land is taken for a public use. (Cal. Const.,
art. I, § 19; U.S. Const., 5th Amend.) These
constitutional guarantees do “not prohibit the taking of
private property, but instead place[] a condition on the
exercise of that power.” (First English Evangelical
Lutheran Church v. County of Los Angeles (1987) 482
U.S. 304, 314.) Stated differently, the state and federal
takings clauses are “designed not to limit the

App. 34
governmental interference with property rights per se,
but rather to secure compensation in the event of
otherwise proper interference amounting to a taking.”
(Id. at p. 315.)
“The paradigmatic taking requiring just
compensation is a direct government appropriation or
physical invasion of private property.” (Lingle v.
Chevron U.S.A., Inc. (2005) 544 U.S. 528, 537 (Lingle).)
However, “government regulation of private property
may, in some instances, be so onerous that its effect is
tantamount to a direct appropriation or
ouster—and . . . such ‘regulatory takings’ may be
compensable” as a taking. (Id. at p. 537; Pennsylvania
Coal Co. v. Mahon (1922) 260 U.S. 393, 415 [“[W]hile
property may be regulated to a certain extent, if
regulation goes too far it will be recognized as a
taking.”].)
“Two categories of regulatory action are generally
‘deemed per se takings for Fifth Amendment purposes.
First, where government requires an owner to suffer a
permanent physical invasion of her property—however
minor—it must provide just compensation. [Citation.]
A second categorical rule applies to regulations that
completely deprive an owner of “ ‘all economically
beneficial us[e]’ ” of her property. ‘[Citation.]” (Dryden
Oaks, LLC v. San Diego County Regional Airport
Authority (2017) 16 Cal.App.5th 383, 394-395.)
In addition to these “relatively narrow” categories of
regulatory takings, the United States Supreme Court
recognized a third “essentially ad hoc” category of
regulatory takings in Penn Cent. Transp. Co. v. New
York City (1978) 438 U.S. 104, 124 (Penn Central).

App. 35
(Lingle, supra, 544 U.S. at p. 538.) In Penn Central, the
Supreme Court identified three factors that are of
“particular significance” for determining whether an ad
hoc regulatory taking has occurred. The primary
considerations are “ ‘the economic impact of the
regulation on the claimant’ ” and the “ ‘extent to which
the regulation has interfered with distinct
investment-backed expectations.’ ” (Lingle, supra, 544
U.S. at pp. 538-539.) “In addition, the ‘character of the
governmental action’—for instance whether it amounts
to a physical invasion or instead merely affects
property interests through ‘some public program
adjusting the benefits and burdens of economic life to
promote the common good’—may be relevant in
discerning whether a taking has occurred.”10 (Id. at
p. 539.)
In this case, the trial court concluded that the City
was entitled to judgment as a matter of law on the
Bottinis’ inverse condemnation cause of action, which
alleged that the delay arising from the City Council’s
order granting the CEQA appeals violated the takings
10

A special regulatory takings test also applies to land-use
exactions, i.e., demands that governments make on landowners to
dedicate a portion of their property to the public as a condition for
securing development permits. In land-use exaction cases, there
must be an “essential nexus” between a “legitimate state interest”
that the government asserts will be furthered by the condition of
a development permit and the exaction, as well as “rough
proportionality” between the development restriction and the
impact that the state-imposed development condition is intended
to mitigate. (Dolan v. City of Tigard (1994) 512 U.S. 374, 386, 391;
Nollan v. Cal. Coastal Com. (1987) 483 U.S. 825, 837.) This
standard does not apply because the Bottinis have not alleged a
land-use exaction.

App. 36
clause of the California Constitution. In granting
summary judgment for the City, the court did not apply
the Penn Central factors discussed ante. Instead, it
applied the “substantially advances” standard that the
California Supreme Court articulated in Landgate,
supra, 17 Cal.4th 1006—a standard that asks whether
the government’s conduct substantially advances a
legitimate state interest.
On appeal, the City urges us to apply the
“substantially advances” formula in evaluating the trial
court’s summary judgment ruling. The Bottinis, on the
other hand, contend that the “substantially advances”
test is no longer good law and insist that we must
apply the Penn Central test—a test that the Bottinis
claim they have satisfied. Therefore, before we rule on
the merits of the trial court’s summary judgment
ruling, we must resolve the proper legal standard that
governs when a plaintiff alleges a regulatory taking
under the California Constitution—a task that we turn
to now.
In Landgate, the California Coastal Commission
denied a landowner’s request for a coastal development
permit to build a residence on its property for several
reasons, including the landowner’s failure to obtain a
necessary lot line adjustment from the Commission.
(Landgate, supra, 17 Cal.4th at pp. 1011-1013.) The
trial court granted the landowner’s petition for writ of
mandate compelling the Commission to set aside its
decision on the basis that the Commission lacked
jurisdiction to consider the lot line adjustment—that
authority rested with the County of Los Angeles. (Id. at
p. 1014.) The landowner also filed state and federal

App. 37
takings claims against the Commission, seeking
damages for the delay caused by the Commission’s
erroneous determination that it, rather than the
County, had jurisdiction over the setting of the
property’s lot lines. (Id. at p. 1013.) The trial court and
the Court of Appeal found that the landowner was
entitled to recover on its taking claims, but our
Supreme Court reversed. (Id. at pp. 1015-1016, 1032.)
The Supreme Court cited Penn Central and its
factors with approval, but did not in fact apply the
Penn Central factors to the case before it. Instead, the
Court—reciting language from a different United
States Supreme Court case, Agins v. City of Tiburon
(1980) 447 U.S. 255—found that a regulatory error
alone does not amount to a taking if it is “part of a
reasonable regulatory process designed to advance
legitimate government interests . . . .” (Landgate,
supra, 17 Cal.4th at p. 1021.) As the Landgate Court
explained, “[t]he proper inquiry is . . . whether there is,
objectively, sufficient connection between the land use
regulation in question and a legitimate governmental
purpose so that the former may be said to substantially
advance the latter.” (Id. at p. 1022.) Under that
means-end standard, the Landgate Court concluded
that the Commission’s permit denial, though
erroneous, “appear[ed] to substantially advance
legitimate governmental interests,” and that it
therefore did not give rise to a takings claim. (Id. at p.
1023.)
However, in Lingle, the United States Supreme
Court subsequently held that the “substantially
advances” formula that it had set forth in Agins—the

App. 38
formula that the California Supreme Court had cited in
Landgate—was “regrettably imprecise” and is “not a
valid method of discerning whether private property
has been ‘taken’ for purposes of the Fifth Amendment.”
(Lingle, supra, 544 U.S. at p. 542.) As the unanimous
Lingle Court explained, the aim of regulatory takings
jurisprudence is to “identify regulatory actions that are
functionally equivalent to the classic taking in which
government directly appropriates private property or
ousts the owner from his domain.” (Id. at p. 539.) To do
so, courts must “focus[] directly upon the severity of the
burden that government imposes upon private property
rights.” (Ibid.) However, “the ‘substantially advances’
inquiry reveals nothing about the magnitude or
character of the burden a particular regulation imposes
upon private property rights. Nor does it provide any
information about how any regulatory burden is
distributed among property owners. In consequence,
[the “substantially advances”] test does not help to
identify those regulations whose effects are
functionally comparable to government appropriation
or invasion of private property; it is tethered neither to
the text of the Takings Clause nor to the basic
justification for allowing regulatory actions to be
challenged under the Clause.” (Id. at p. 542.)
The Lingle Court further found that the
“substantially advances” test “asks, in essence, whether
a regulation of private property is effective in achieving
some legitimate public purpose. An inquiry of this
nature has some logic in the context of a due process
challenge, for a regulation that fails to serve any
legitimate governmental objective may be so arbitrary
or irrational that it runs afoul of the Due Process

App. 39
Clause . . . . But such a test is not a valid method of
discerning whether private property has been ‘taken’
for purposes of the Fifth Amendment.” (Lingle, supra,
544 U.S. at p. 542.) Thus, the Lingle Court held “that
the ‘substantially advances’ formula is not a valid
takings test, and indeed conclude[d] that it ha[d] no
proper place in [the Supreme Court’s] takings
jurisprudence.” (Id. at p. 548.)
In the wake of Lingle, state and federal courts alike
have recognized that the “substantially advances”
formula that the United States Supreme Court
articulated in Agins and the California Supreme Court
applied in Landgate no longer constitutes a valid test
by which to determine whether there has been a
regulatory taking under the Fifth Amendment; instead,
the Penn Central factors govern. (Lockaway Storage v.
County of Alameda (2013) 216 Cal.App.4th 161, 189
[“In light of Lingle, we reject the [c]ounty’s contention
that Landgate establishes an independent test for
evaluating whether government action is a regulatory
taking.”]; Allegretti & Co. v. County of Imperial (2006)
138 Cal.App.4th 1261, 1280 (Allegretti) [“Whether
County’s Action Substantially Advances a State
Interest Is No Longer A Valid Standard to Assess An
Unconstitutional Taking Under the Fifth
Amendment”]; Guggenheim v. City of Goleta (9th Cir.
2010) 638 F.3d 1111, 1117 [“Agins was overruled by
Lingle”]; Crown Point Dev. Inc. v. City of Sun Valley
(9th Cir. 2007) 506 F.3d 851, 854 [“Agins’ ‘substantially
advances’ language—i.e., that it is a ‘stand-alone
regulatory takings test’—was rejected by the Supreme
Court in Lingle.”].)

App. 40
To date, no published authority of which we are
aware has expressly analyzed whether, in light of
Lingle, the “substantially advances” formula remains
a valid test by which to determine whether a regulatory
taking has occurred under the takings clause of the
California Constitution, as opposed to the Fifth
Amendment to the United States Constitution.
(Allegretti, supra, 138 Cal.App.4th at pp. 1281-1284
[declining to decide whether the “substantially
advances” test is a viable regulatory takings test under
the California Constitution].) We now answer that
question in the negative and conclude that the Penn
Central test endorsed in Lingle—and not the
“substantially advances” formula—applies to ad hoc
regulatory takings claims that arise under the
California Constitution. We reach this conclusion for
the following reasons.
First, the California Supreme Court has held that
the takings clause in the California Constitution should
be construed “congruently” with the federal takings
clause, with minor differences that are not applicable
here. (San Remo Hotel v. City and County of San
Francisco (2002) 27 Cal.4th 643, 664; see also, e.g.,
Santa Monica Beach v. Superior Court (1999) 19
Cal.4th 952, 957, 962-975 [takings challenge to rent
control regulation under both clauses considered
without separate discussion of the state clause].) On
that basis, at least one member of the California
Supreme Court has explained that Lingle’s ruling—i.e.,
its clarification that the “substantially advances”
formula is a due process test—applies to challenges
arising under the California Constitution. (California
Building Industry Assn. v. City of San Jose (2015) 61

App. 41
Cal.4th 435, 485 (conc. opn. of Werdegar, J.) [“Had
Lingle already been decided, we would have considered
it in our analysis.”].)
Second, the rationale underpinning the Lingle
decision applies with equal force to the California
takings clause as to the federal takings clause. “Indeed,
it has long been recognized that the purpose of section
19 [of article I of the California Constitution], as well
as the purpose of the takings clause of the Fifth
Amendment to the United States Constitution, is to
ensure that individual property owners are not
compelled to bear burdens or incur costs that, in
fairness and justice, should be borne by the public at
large.” (Williams v. Moulton Niguel Water Dist. (2018)
22 Cal.App.5th 1198, 1210.) But, as the Lingle Court
described, the “substantially advances” formula neither
elucidates the magnitude or character of the burden
that the government regulation imposes upon private
property rights nor provides information about how the
regulatory burden is distributed among property
owners. (Lingle, supra, 544 U.S. at p. 542.)
Finally, no published California Supreme Court or
Court of Appeal decision of which we are aware has
applied the “substantially advances” formula to
regulatory takings claims—whether based on the
United States or California Constitution—since the
United States Supreme Court issued Lingle thirteen
years ago. On the contrary, it appears that California
courts have implicitly assumed that the Penn Central
formula—not the “substantially advances”
test—applies to ad hoc regulatory takings claims under
both the state and federal takings clauses. (Los Altos El

App. 42
Granada Investors v. City of Capitola (2006) 139
Cal.App.4th 629, 651 [overturning trial court’s ruling
that plaintiff’s state and federal takings claims were
meritless because the trial court applied the
“substantially advances” test, which is a “due process
test”]; see Besaro Mobile Home Park, LLC v. City of
Fremont (2012) 204 Cal.App.4th 345, 359 [applying
Penn Central test to takings cause of action arising
under California Constitution]; Garcia v. Four Points
Sheraton LAX (2010) 188 Cal.App.4th 364, 389-390
[same]; Small Property Owners of San Francisco v. City
& County of S.F. (2006) 141 Cal.App.4th 1388,
1402-1409 [same].)
Accordingly, and based on our Supreme Court’s
instruction that we are to interpret the California
Constitution’s takings clause congruently with the
federal takings clause, we make explicit the conclusion
that past decisions have impliedly reached and hold
that the Penn Central test—not the “substantially
advances” formula—applies to regulatory takings
causes of action arising under the California
Constitution.
b. Application
In the following section, we apply the Penn Central
standard to the facts of the present appeal. As noted,
the Penn Central test requires us to examine three
factors to determine whether a regulatory taking has
occurred: (1) the economic impact of the regulation on
the claimant; (2) the extent to which the regulation has
interfered with the claimant’s reasonable, distinct
investment-backed expectations; and (3) the character

App. 43
of the government action. (Penn Central, supra, 438
U.S. at p. 124.)
For the first factor, “we ask whether the regulation
‘unreasonably impair[s] the value or use of [the]
property’ in view of the owners’ general use of their
property.” (Allegretti, supra, 138 Cal.App.4th at p.
1278.) In this case, the evidence suggests that the City
Council’s decision had an adverse economic impact on
the Bottinis. For example, the evidence shows that the
Bottinis have had to pay a mortgage for both their
existing home and an empty lot—at an additional cost
of several thousand dollars per month—as a result of
the construction delay caused by the City Council’s
erroneous resolution granting the CEQA appeals.
Further, it is doubtful that the Bottinis could have
made an alternative use of the property during the
period in which they sought to overturn the City
Council’s decision, given that the lot is zoned
exclusively for residential purposes. Thus, the economic
impact factor weighs in favor of the Bottinis.
However, the second factor—the extent to which the
City Council’s decision interferes with a reasonable
investment-backed expectation—weighs strongly
against the Bottinis. “A ‘reasonable investment-backed
expectation’ must be more than a ‘unilateral
expectation or an abstract need.’ ” (Ruckelshaus v.
Monsanto Co. (1984) 467 U.S. 986, 1005 (Ruckelshaus);
see also Allegretti, supra, 138 Cal.App.4th at p. 1279.)
Instead, it “must be objectively reasonable.” (Colony
Cove Props., LLC v. City of Carson (9th Cir. 2018) 888
F.3d 445, 452.) Additionally, “a reasonable expectation
may [depend on] whether the landowner had

App. 44
constructive knowledge of the regulation when
choosing to [acquire] the property.” (Shaw v. County of
Santa Cruz (2008) 170 Cal.App.4th 229, 273 (Shaw).)
The only evidence relevant to the second factor that
the Bottinis have submitted is a three-page declaration
from Francis Bottini, which states in pertinent part as
follows: “When we purchased the home, the [Prior
Owner] represented in the listing that the existing
residence could either be renovated or demolished and
replaced . . . . We relied on this representation in
purchasing the property for $1.22 million because the
existing residence appeared abandoned and not in good
repair.” This does not establish that the Bottinis had a
distinct investment-backed expectation.
As an initial matter, Mr. Bottini’s declaration does
not state that, at the time the Bottinis purchased the
property at issue, they intended to demolish the
Windemere and construct a residence on the lot. Thus,
the Bottinis’ expectations are not distinct and concrete,
but are instead vague and abstract. (Allegretti, supra,
138 Cal.App.4th at p. 1279 & id. fn. 9 [“[Plaintiff’s]
testimony was only that he had purchased the farm
having been given ‘lots of reassurances that it could be
a viable farming operation’ (italics added) and that his
investment had not yet reached expectation . . . .
[Plaintiff’s] expectation is too general to meet the
requisite Penn Central factor.”]; Shaw, supra, 170
Cal.App.4th at p. 274 [affirming determination that
there was no regulatory taking of property, where the
property owners’ “abstract and vague expectations
[were] not the slightest bit ‘distinct’ so as to qualify as

App. 45
a ‘ “distinct investment backed expectation[]” ’ that
would favor the finding of a taking.”].)
Even if the Bottinis had articulated that they had a
distinct expectation to demolish the Windemere and
build a residence at the time they purchased the
property, there is no basis for us to conclude that the
Bottinis had a reasonable expectation that they would
be permitted to engage in such conduct without
undertaking any form of environmental review. Indeed,
Mr. Bottinis’ declaration claims merely that the Prior
Owner stated that the Windemere could “be renovated
or demolished and replaced”—a representation that
says nothing about whether environmental review
would or would not be necessary.
Further, setting aside any representations that the
Prior Owner may have made to the Bottinis, there is no
evidence that the City informed the Bottinis before they
purchased the property that they could demolish the
Windemere and construct a residence without
undergoing environmental review. This case thus
stands in contrast to Lockaway Storage v. County of
Alameda (2013) 216 Cal.App.4th 161 (Lockaway), on
which the Bottinis rely. In that case, the County of
Alameda informed a storage facility operator that it
could build and operate a self-storage facility on a
property that the operator had not yet acquired. (Id. at
p. 168.) The operator then purchased the property and,
after several years, the County reversed its stance. (Id.
at p. 186.) On these facts, the court found that the
operator had a reasonable investment-backed
expectation. (Id. at pp. 185-186.) In this case, by
contrast, there is no evidence suggesting that the

App. 46
Bottinis purchased the property in reliance on any
representation made by the City.
In fact, at the time the Bottinis purchased the
property, the Prior Owner’s nomination for the
Windemere’s designation as a historical resource was
still pending before the Board. Thus, when the Bottinis
purchased the property, it was still possible that the
Board would grant historical designation to the
Windemere—and indeed, it nearly did. If that had
happened, the Bottinis very likely would not have been
able to demolish the Windemere and construct a new
residence without satisfying the Municipal Code
nuisance abatement procedures applicable to
structures that have been designated as historical
resources (Mun. Code, § 121.0419) and/or undergoing
a full CEQA review (§§ 21060.5, 21084, subd. (e),
21084.1; Guidelines, § 15300.2, subd. (f)). In addition,
Mr. Bottini himself testified during one of the City
Council hearings that he “knew when [they] bought
[the] house . . . it would be well over a year before [they
would] be able to do anything to that house” because of
the historical review nomination that was pending at
the time. For all of these reasons, we conclude that the
Bottinis lacked a reasonable and distinct
investment-backed expectation.
Finally, the third Penn Central factor requires us to
examine the “character” of the City’s action. (Penn
Central, supra, 48 U.S. at p. 124.) The Lingle Court
explained that whether the government’s conduct
“amounts to a physical invasion or instead merely
affects property interests through ‘some public program
adjusting the benefits and burdens of economic life to

App. 47
promote the common good’—may be relevant in
discerning whether a taking has occurred.” (Lingle,
supra, 544 U.S. at p. 539.) In this case, the City did not
physically invade or appropriate the Bottinis’ property.
Accordingly, this factor does not support a taking.
(Shaw, supra, 170 Cal.App.4th at p. 274 [holding that
there was no regulatory taking, in part, because the
government did not physically invade the property at
issue]; Allegretti, supra, 138 Cal.App.4th at p. 1278
[same]; Rancho De Calistoga v. City of Calistoga (9th
Cir. 2015) 800 F.3d 1083, 1091 [same].)
“We may dispose of a takings claim on the basis of
one or two of [the Penn Central] factors.” (Allegretti,
supra, 138 Cal.App.4th at p. 1277.) For the foregoing
reasons—in particular, the lack of a distinct
investment-backed expectation—we conclude that the
trial court did not err in granting summary judgment
for the City on the Bottinis’ inverse condemnation
cause of action. (Ruckelshaus, supra, 467 U.S. at p.
1005 [disposing of takings claim relating to trade
secrets solely on absence of reasonable
investment-backed expectations].)
3. Due process
Under the California Constitution, a person may not
be deprived of life, liberty, or property without due
process of law. (Cal. Const., art. I, § 7, subd. (a).) “The
concept of ‘due process of law’ guarantees both
procedural and substantive rights.” (Rental Housing
Owners Assn. of Southern Alameda County, Inc. v. City
of Hayward (2011) 200 Cal.App.4th 81, 93 (Hayward).)
Although the Bottinis’ complaint does not state
whether they have asserted a procedural or substantive

App. 48
due process cause of action against the City, or both,
their summary judgment briefing and appellate briefs
focus on substantive due process concerns. Further, the
Bottinis have not alleged or argued that the City
denied them notice and an opportunity to be heard
before depriving them of a protected liberty or property
interest—the foundational requirements of procedural
due process.11 (Alviso v. Sonoma County Sheriff’s Dept.
(2010) 186 Cal.App.4th 198, 209.) We therefore
construe the Bottinis’ cause of action as one sounding
in substantive due process.
“Substantive due process protects against ‘arbitrary
legislative action, even though the person whom it is
sought to deprive of his right to life, liberty or property
is afforded the fairest of procedural safeguards.’
[Citation.] To satisfy substantive due process concerns,
‘the law must not be unreasonable, arbitrary or
capricious but must have a real and substantial
relation to the object sought to be attained.
[Citations.]’ ” (Hayward, supra, 200 Cal.App.4th at p.
93.) “ ‘[R]ejections of development projects and refusals
to issue building permits do not ordinarily implicate
substantive due process. [Citations.] Even where state
officials have allegedly violated state law or
administrative procedures, such violations do not
ordinarily rise to the level of a constitutional
11

The Bottinis briefly argue that one of the City Council members
who voted to grant the CEQA appeals formerly served as an officer
of LJHS and therefore, had “biased views” that detract from the
“legitimacy” of the City Council’s votes. However, the Bottinis
relegated this undeveloped argument to a footnote. We therefore
decline to consider it. (California School Bds. Assn. v. State of
California (2011) 192 Cal.App.4th 770, 796, fn. 9.)

App. 49
deprivation.’ ” (Stubblefield Construction Co. v. City of
San Bernardino (1995) 32 Cal.App.4th 687, 709.)
Rather, “[a] substantive due process violation requires
some form of outrageous or egregious conduct
constituting a ‘true abuse of power.’ ” (Las Lomas Land
Co., LLC v. City of Los Angeles (2009) 177 Cal.App.4th
837, 856 (Las Lomas).)
The Bottinis contend that a reasonable jury could
conclude that the City Council’s decision to grant the
CEQA appeals and remand the Bottinis’ CDP
application to City staff for further environmental
review was unreasonable, arbitrary, and capricious.
The Bottinis further argue that a reasonable jury could
find that the City Council acted as it did in order to
punish the Bottinis for demolishing the Windemere.
We have no need to analyze whether a reasonable
jury could reach these conclusions because, as the City
correctly argues, the Bottinis have not identified any
property interest or statutorily conferred benefit with
which the City has interfered. (Conejo Wellness Center,
Inc. v. City of Agoura Hills (2013) 214 Cal.App.4th
1534, 1562-1563 [affirming order dismissing due
process claim brought under California Constitution
because marijuana cooperative had no property right to
operate dispensary]; Chan v. Judicial Council of
California (2011) 199 Cal.App.4th 194, 201 [affirming
order dismissing due process claim brought under
California Constitution because plaintiffs had no
property interest in remaining certified interpreters];
cf. Schultz v. Regents of University of California (1984)
160 Cal.App.3d 768, 783 [“If a [plaintiff] cannot show
a statutory interest subject to deprivation, we believe

App. 50
the [plaintiff] must still identify a property interest in
order to invoke due process rights under the state
Constitution.”].)
The Bottinis raised this argument both in the trial
court and on appeal; however, the Bottinis have not
attempted to identify any interest or benefit of which
the City has deprived them. Instead, relying on
Galland v. City of Clovis (2001) 24 Cal.4th 1003
(Galland), the Bottinis suggest that they need not
identify any right or statutorily conferred interest to
prove a due process violation, as long as they can show
that the City engaged in a “deliberate flouting of the
law.” (Id. at p. 1035.) The Bottinis are mistaken.
Under Galland, a government entity may be found
liable for a due process violation for conduct that
deliberately flouts the law, but such conduct still must
“obstruct the [plaintiff’s] constitutionally based
property rights.” (Galland, supra, 24 Cal.4th at p. 1040,
italics added; id. at p. 1033 [the “deliberate flouting”
test is the “appropriate substantive due process
standard for determining when an administrative body
charged with implementing a law acts erroneously in
such a way as to injure an individual’s economic and
property interests.”], italics added; id. at p. 1034 [“[A]
deliberate flouting of the law that trammels significant
personal or property rights” qualifies as a due process
violation], italics altered; id. at p. 1040
[“[A]dministrative expenses can be charged directly to
[the government] . . . only when the city imposes them
in deliberate contravention of the law to obstruct the
[plaintiffs’] constitutionally based property
rights . . . .”], italics added.) Thus, the Bottinis can

App. 51
prevail only if they show that the City’s allegedly
deliberate flouting of the law interfered with a property
right or statutorily conferred interest. They have
identified no such right or interest.
Nor is it apparent that the Bottinis could identify
such a right or interest. The Bottinis have no right or
statutorily conferred interest that entitles them to
bypass CEQA review. (Las Lomas, supra, 177
Cal.App.4th at pp. 848-852 [project applicant had no
due process right to force lead agency to complete and
consider EIR under CEQA]; Sagaser v. McCarthy
(1986) 176 Cal.App.3d 288, 308 [“The procedural rights
created by CEQA . . . do not operate as constitutional
safeguards nor create fundamental, substantive
rights.”].) Indeed, even if a lead agency declares a
project categorically exempt under CEQA (for example,
under a Class 3 categorical exemption), the agency has
discretion to apply an exception that overrides the
categorical exemption. Nor do the Bottinis have a
property right or statutorily conferred interest in a
discretionary CDP that has not yet been issued.
(Reddell v. California Coastal Com. (2009) 180
Cal.App.4th 956, 970-971 [“The Coastal Act sets only
minimum standards and policies and creates no
mandatory duty to issue development permits.”].)
On these facts, we conclude that the trial court
properly granted the City’s motion for summary
judgment on the Bottinis’ substantive due process
cause of action.12

12

We note that the Bottinis’ prayer for relief requests only
monetary damages for the due process cause of action, coupled

App. 52
4. Equal Protection
The California Constitution, like its federal
counterpart, guarantees the right to equal protection of
the laws. (Cal. Const., art. I, § 7, subd. (a).) “Equal
protection of the laws means that similarly situated
persons shall be treated similarly unless there is a
sufficiently good reason to treat them differently.”
(People v. Castel (2017) 12 Cal.App.5th 1321, 1326.)
The Bottinis alleged a “class of one” violation,
claiming that the City treated them differently from
every other person seeking to build a single-family
home insofar as the City required a full environmental
review of a CEQA-exempt residential construction
project. “To succeed on a class of one claim, a plaintiff
must establish that ‘(1) the plaintiff was treated
differently from other similarly situated persons,
(2) the difference in treatment was intentional, and
(3) there was no rational basis for the difference in
treatment.’ ” (Gerawan Farming, Inc. v. Agricultural
Labor Relations Bd. (2017) 3 Cal.5th 1118, 1144.) The
third element is essentially the same rational basis test
that courts typically apply in equal protection cases
involving economic regulations. (Las Lomas, supra, 177

with a general request for attorney fees and costs. However, “[i]t
is beyond question that a plaintiff is not entitled to damages for a
violation of the due process clause or the equal protection clause of
the state Constitution.” (Javor v. Taggart (2002) 98 Cal.App.4th
795, 807 (Javor).) Because we resolve this appeal based on the
Bottinis’ lack of a property interest or statutorily conferred benefit,
we need not and do not address whether the Bottinis’ inability to
recover damages constitutes an independent basis on which to
affirm the summary judgment order.

App. 53
Cal.App.4th at p. 858.) For purposes of this decision,
we presume that the first two elements are satisfied
and focus our attention on the third element.
Where the defendant is “the party moving for
summary judgment[,] it has the burden of negating a
necessary element of the plaintiff’s case or establishing
an affirmative defense. [Citation.] In the area of
economic regulation, a legislative classification does not
deny equal protection if the ‘distinctions drawn by a
challenged [act] bear some rational relationship to a
conceivable legitimate state purpose.’ [Citation.] Thus,
in a case where the state moves for summary
judgment, the state meets its burden by demonstrating
some conceivably rational basis for its classification. ‘A
distinction . . . is not arbitrary if any set of facts
reasonably can be conceived that would sustain it.’
[Citation.] The state need not prove such facts exist;
the existence of facts supporting the . . . [classification]
is presumed. [Citations.] Once the state posits a
rational basis for its classification, the burden shifts to
the plaintiff to demonstrate the classification bears no
rational relationship to any conceivable legitimate
state interest as a matter of law [citation] or to
demonstrate there are triable issues of fact which, if
resolved in favor of the plaintiff, would negate any
rational basis for the classification.” (Wachs v. Curry
(1993) 13 Cal.App.4th 616, 622, revd. on other grounds
Marathon Entertainment, Inc. v. Blasi (2008) 42
Cal.4th 974 (Wachs).)
In its motion for summary judgment and its
appellate briefing, the City articulated just one basis
for the City Council’s conduct, i.e., that the City

App. 54
Council rationally could have granted the CEQA
appeals and required the Bottinis’ project to undergo
environmental review because the City purportedly
believed that “a potential statewide historic resource
had been destroyed and the loss of a 100 year old beach
cottage had evaded environmental review.”
There can be no dispute that the state has a
legitimate interest in protecting California’s
environmental resources and ensuring that statutorily
mandated environmental reviews are conducted.
(§ 21000 [“It is the intent of the Legislature that all
agencies of the state government which regulate
activities of private individuals, corporations, and
public agencies which are found to affect the quality of
the environment, shall regulate such activities so that
major consideration is given to preventing
environmental damage . . . .”].) The Bottinis do not
contend otherwise.
However, the parties dispute whether the City’s
decision was rationally related to achieving that
interest. We conclude that it was. Although the
Windemere no longer existed at the time the City
Council issued its decision, thereby precluding any
possibility that the Windemere could be preserved or
relocated, the City could have reasonably believed that
an “environmental review” of the Bottinis’ project
would result in other forms of mitigation. (Napa Valley
Wine Train, Inc. v. Public Utilities Com. (1990) 50
Cal.3d 370, 376, fn. 7, revd. on another point by Pub.
Resources Code, § 21080.04, subd. (b) [“full
environmental review” under CEQA includes
“consideration of available measures to mitigate any

App. 55
environmental effects”].) In fact, before the City
Council granted the CEQA appeals and ordered a
CEQA review of the project, the Bottinis themselves
proposed mitigation measures that did not involve the
preservation or relocation of the Windemere, including
the creation of a plaque commemorating the
Windemere and the donation of the Windemere’s
architectural drawings to a historical society.13
Because the City satisfied its burden of articulating
a rational basis for its decision, the burden shifted to
the Bottinis to show that the City’s decision bore no
rational relationship to a conceivable legitimate state
interest as a matter of law, or to demonstrate that
there were triable issues of fact which, if resolved in
favor of the Bottinis, would negate any rational basis
13

In relating the mitigation measures proposed by the Bottinis, we
are not suggesting that these measures would constitute sufficient
mitigation if a lead agency were to conclude that a project may
cause a substantial adverse change in the significance of an
historical resource. On the contrary, “preservation in place” is the
preferred method of addressing environmental impacts affecting
historical resources, unless the lead agency “determines that
another form of mitigation is available and provides superior
mitigation of the impacts.” (Madera Oversight Coalition, Inc. v.
County of Madera (2011) 199 Cal.App.4th 48, 87; see League for
Protection of Oakland’s etc. & Historic Resources v. City of Oakland
(1997) 52 Cal.App.4th 896, 909 [proposed measures to mitigate the
demolition of an historical building, including a plaque and
documentation of the building’s historical features, did not “begin
to alleviate the impacts of [the building’s] destruction”].) Rather,
we simply conclude that, under the deferential rational basis test,
the City Council could have reasonably concluded that mitigation
measures other than preservation or relocation of the Windemere
would be sufficient here, where preservation and relocation were
no longer viable options.

App. 56
for the classification. (Wachs, supra, Cal.App.4th at p.
622.) The Bottinis argue that they satisfied that burden
for two reasons.
First, the Bottinis contend that a triable issue of
fact exists because the City patently misapplied CEQA,
namely, by requiring an environmental assessment of
a CEQA-exempt project. As discussed ante, we agree
that the City misconstrued CEQA and, on that basis,
we have affirmed the trial court’s order granting their
petition for a peremptory writ of mandamus. However,
we disagree that the City Council’s mere
misinterpretation of CEQA establishes a triable issue
of fact as to whether the City Council violated the
Bottinis’ equal protection rights. The City Council
articulated a rational basis for its decision, even though
we have concluded that the expressed basis is
erroneous. (Clark v. City of Hermosa Beach (1996) 48
Cal.App.4th 1152, 1186 [“Plainly, the [c]ouncil erred in
considering and deciding issues raised for the first time
after the public hearing was over. Further, it may have
misconstrued or misapplied the provisions of the zoning
ordinance concerning lot coverage and usable open
space. Nonetheless, the [c]ouncil’s ultimate decision to
deny the permits did not lack a rational basis.”]; Shaw,
supra, 170 Cal.App.4th at p. 278 [“[T]he [c]ounty’s legal
position, though later found to be erroneous, was
nevertheless plausible” and therefore constitutional.].)
Second, the Bottinis argue that a reasonable jury
could conclude that the City Council required an
environmental assessment in order to punish the
Bottinis for demolishing the Windemere. However, in
making this argument, the Bottinis rely entirely on

App. 57
inference and have produced no evidence that the City
Council ordered an environmental review in order to
punish them. The Bottinis contend that an intent to
punish can be inferred from one City Council member’s
statement that an environmental assessment was
needed to “do the right thing.” We disagree. A City
Council member’s request that the City Council “do the
right thing” in no way implies that the City Council
member, let alone the entire City Council, sought to
punish the Bottinis.
For all of these reasons, we conclude that the trial
court did not err in granting summary judgment for the
City on the Bottinis’ equal protection cause of action.14
DISPOSITION
The judgment is affirmed. The parties are to bear
their own costs on appeal.
AARON, J.
WE CONCUR:
HALLER, Acting P. J.
GUERRERO, J.

14

As with their due process cause of action, the Bottinis seek only
monetary damages, which cannot be recovered for alleged
violations of the equal protection clause of the California
Constitution. (Javor, supra, 98 Cal.App.4th at p. 807.) Our
conclusion that the City had a rational basis for its decision
obviates the need for us to determine whether the summary
judgment ruling should be affirmed on this basis.

App. 58
KEVIN J. LANE, Clerk of the Court of Appeal, Fourth
Appellate District, State of California, does hereby
Certify that the preceding is a true and correct copy of
the Original of this document/order/opinion filed in this
Court as shown by the records of my office.
WITNESS, my hand and the Seal of this Court.
09/18/2018
[SEAL]

KEVIN J. LANE, CLERK
By A Galvez
Deputy Clerk

App. 59

APPENDIX C
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF
SAN DIEGO, CENTRAL DIVISION
Case No. 37-2013-00075491-CU-TM-CTL
Judge Katherine A. Bácal
Dept. 69
[Filed December 23, 2016]
___________________________________
BERNATE TICINO TRUST
)
DATED MARCH 2, 2009,
)
TRUST “3”; NINA M. BOTTINI;
)
and FRANCIS A. BOTTINI, JR.,
)
)
Petitioners and Plaintiffs,
)
)
v.
)
)
CITY OF SAN DIEGO, a municipal
)
corporation; CITY COUNCIL OF
)
THE CITY OF SAN DIEGO;
)
and DOES 1 – 10, inclusive,
)
)
Respondents and Defendants. )
___________________________________ )

App. 60
JUDGMENT
This is a case alleging writ of mandate, inverse
condemnation, violation of due process and violation of
equal protection. The Court bifurcated the writ hearing
from the remaining causes of action.
The Court heard argument on the writ of mandate
on December 15, 2014. It found in favor of plaintiffs
and issued a Peremptory Writ of Mandate on January
26, 2015. The Court’s December ruling is attached
hereto as Exhibit A. The Peremptory Writ of Mandate
is attached hereto as Exhibit B.
On June 7, 2016, plaintiffs filed a first amended
petition (FAP) pursuant to the parties’ agreement.
On October 21, 2016, the Court heard argument on
defendants’ motion for summary judgment. It found in
favor of defendants on the three remaining causes of
action. At the hearing, the Court confirmed its
tentative with one modification. The Court declined to
rule on the City’s foundation and authentication
objections to Exhibits 9 through 11, and 17 through 19,
finding that the Exhibits were not material to the
disposition. The Court’s minute order, reflecting the
modification is attached hereto as Exhibit C.
All matters now being fully resolved, the Court
orders that judgment be entered as follows:
1. In favor of plaintiffs on their first cause of action
for writ of mandamus for Failure to Comply with
the California Environmental Quality Act;

App. 61
2. In favor of defendants on the second cause of
action (Inverse Condemnation), third cause of
action (Due Process Violations) and fourth cause
of action (Equal Protection Violation);
3. Costs to be awarded pursuant to memoranda of
costs.
Dated: December 23, 2016
/s/Katherine A. Bacal
KATHERINE A. BACAL
Judge of the Superior Court

App. 62
EXHIBIT A
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
CENTRAL
MINUTE ORDER
DATE: 12/15/2014 TIME: 02:38:00 PM

Dept: C-69

JUDICIAL OFFICER PRESIDING: Katherine Bacal
CLERK: Jay Browder
REPORTER/ERM: Not Reported
BAILIFF/COURT ATTENDANT: C. Rice
CASE NO: 37-2013-00075491-CU-TT-CTL
CASE INIT.DATE: 11/13/2013
CASE TITLE: Bernate TicinoTrust Dated March 2,
2009 Trust ‘3’ vs. City Of San Diego [E-File]
CASE CATEGORY: Civil - Unlimited
CASE TYPE: Toxic Tort/Environmental
APPEARANCES
There are no appearances by any party.
The Court, having taken the above-entitled matter
under submission on 12/11/2014 and having fully
considered the arguments of all parties, both written
and oral, as well as the evidence presented, now rules
as follows:
The petition for administrative writ of mandamus, filed
by Bernate Ticino Trust dated March 2, 2009, Trust
“3,” Nina Bottini, and Francis Bottini, Jr. (collectively,
“the Bottinis”) is granted.

App. 63
Preliminary Matters
The parties’ requests for judicial notice are granted,
except for the City’s additional request for judicial
notice stated in its Response. This request does not
comply with the California Rules of Court, is of
questionable relevance and is denied.
Factual and Procedural Background
The Bottinis challenge the City of San Diego’s
determination that their application to construct a
single family residence is not categorically exempt from
review under the California Environmental Quality Act
(CEQA).
The Bottinis purchased the subject property in January
2011. Administrative Record (AR) Vol. 2, Tab 97. At
that time, the property included a structure known as
the Windemere Cottage (the “Cottage”). The Cottage
was constructed in 1895 and moved ½ mile to the
present site in 1927. AR 3:132, p. 1106. The Cottage’s
prior owners nominated the Cottage for historical
designation by the City. The Bottinis withdrew the
nomination in May 2011. Ibid.
In August 2011, the Bottinis asked the City to
determine whether the Cottage was eligible for
historical designation under the Municipal Code. Ibid.
On September 22, 2011, the City’s Historical Resources
Board (HRB) determined not to designate the property
as a historical resource. AR 1: 3; AR 3:174.
That same day, the Bottinis requested that the City’s
Neighborhood Code Compliance Division (NCCD)
determine whether the building was structurally safe.

App. 64
AR 1:12, p. 445. After inspecting the building, on
December 21, 2011 the NCCD declared the structure
unsafe and ordered the Bottinis to obtain a demolition
permit by February 15, 2012. AR 6:492. The Bottinis
obtained a demolition permit the next day. Demolition
was completed by December 30, 2011. AR 5: 365, 366.
In August 2012, the Bottinis applied for a Coastal
Development Permit (CDP) to construct a single family
residence on the property. AR 4:241. In January 2013,
City staff determined the project was exempt under
section 15303 of the CEQA Guidelines (California Code
of Regulations, title 14) pertaining to new construction
of single family residences. AR 4:292. Appeals were
filed by the La Jolla Community Planning Group and
the La Jolla Historical Society. AR 4:297. The City’s
Development Services Department (DSD) prepared a
memorandum addressing the objections and
recommended the City Council deny the appeals. AR 5:
318. Among other things, the DSD stated the
demolition permit was exempt from CEQA because it
was a ministerial act in accordance with the nuisance
determination, the Cottage is not part of the current
project, and the proper baseline for conducting an
environmental review is the condition of the property
at the time of the application, i.e., as a vacant lot. Ibid.
On September 23, 2013 the City Council granted the
appeals. AR 1:1. The City Council determined the
project was not categorically exempt from an
environmental analysis, and it directed City staff to reevaluate the environmental determination with the
baseline for the project set with the Cottage on the site.
The City Council further found that the demolition

App. 65
permit was unlawfully issued while the Cottage was
being considered for listing on the California Register
of Historical Resources.
At issue here is the Bottinis 1st cause of action for
failure to comply with CEQA, the Court having abated
the 2nd cause of action for inverse condemnation
pending the outcome of the CEQA claim. ROA # 56.
Discussion
A. Jurisdiction
The City argues mandamus relief is premature because
there has not been a final administrative decision and
judicial review is not permissible until after the City
conducts a CEQA study. The Court rejected this
argument when it overruled the City’s demurrer. For
the reasons stated in that ruling, the Court has
jurisdiction to decide this petition. See also Association
for a Cleaner Environment v. Yosemite Community
College Dist. (2004) 116 Cal.App.4th 629, 636 (agency’s
preliminary review to determine whether a proposed
activity falls within CEQA is subject to judicial review).
B. Abuse of Discretion
The Bottinis contend that the City Council abused its
discretion in decreeing that the project was not
categorically exempt from CEQA. The issue before the
trial court is whether the agency abused its discretion.
“Abuse of discretion is shown if (1) the agency has not
proceeded in a manner required by law, or (2) the
determination is not supported by substantial
evidence.” Gentry v. City of Murrieta (1995) 36
Cal.App.4th 1359, 1375.

App. 66
Under CEQA, an agency must first determine whether
the project is covered by CEQA. “If the project is
exempt, the process does not need to proceed any
farther.” Guidelines, § 15002, subd. (k)(1). The crux of
this dispute is largely definitional: what is the project?
The Bottinis argue that the project is the new
construction of single family residence on a vacant lot.
Such a project would be categorically exempt. See
Guidelines, § 15303, subd. (a). The City does not
dispute that the Bottinis seek to construct a new single
family residence. It contends, however, that the “whole
of the project” includes the prior removal of the
Cottage, because the lot was created as a result of a
demolition permit that was wrongfully issued.
CEQA defines a “project” as “the whole of an action,
which has a potential for resulting in either a direct
physical change in the environment, or a reasonably
foreseeable indirect physical change in the
environment. . . . ” Guidelines, § 15378; see also Pub.
Resources Code, § 21065. “Whether a particular
activity constitutes a project in the first instance is a
question of law.” Black Property Owners Assn. v. City
of Berkeley (1994) 22 Cal.App.4th 974, 984; see also
California Clean Energy Committee v. City of Woodland
(2014) 225 Cal.App.4th 173, 193 (“The question of
which acts constitute the ‘whole of an action’ for
purposes of CEQA is one of law, which we review de
novo based on the undisputed facts in the record.”)
The City argues that the project baseline was with the
Cottage in place and in the condition as reflected in the
2010 May Historical Report. The record does not
support this assertion. The baseline for a CEQA

App. 67
analysis must be the “existing physical conditions in
the affected area” and reflect the “real conditions on the
ground.” Communities For A Better Environment v.
South Coast Air Quality Management Dist. (2010) 48
Cal.4th 310, 321. The Cottage had been razed pursuant
to a demolition permit eight months before the Bottinis
submitted their project application. Thus, the existing
condition in this case is an empty lot. The fact that the
City now believes the demolition permit should never
have been issued is immaterial because the baseline
does not consider the level of development “that could
or should have been present according to a plan or
regulation.” Id.
An analogous issue was addressed in Citizens for East
Shore Parks v. California State Lands Com. (2011) 202
Cal.App.4th 549. In that case, the plaintiffs asserted
that the baseline should exclude current conditions
because otherwise the project would be exempt CEQA
review. The Court disagreed, explaining that “neither
the statute, nor any CEQA case, supports plaintiffs’
revisionist approach to the baseline.” Id.at 561.
Instead, “the baseline must include existing conditions,
even when those conditions have never been reviewed
and are unlawful.”
At oral argument, the City argued that this case is less
like Citizens and more like Riverwatch v. County of San
Diego (1999) 76 Cal.App.4th 1428. Riverwatch dealt
with a challenge to an environmental impact review
(“EIR”). It is not analogous to a case like this, where
there is a categorical exemption. However, the
Riverwatch Court did note “the generally accepted
principle that environmental impacts should be

App. 68
examined in light of the environment as it exists when
a project is approved.” Id. at 1453.
The City correctly states that CEQA forbids
segmenting a project to evade CEQA review. See
California Clean Energy Committee v. City of Woodland
(2014) 225 Cal.App.4th 173, 193. At oral argument, the
City asked the Court to focus on the Bottinis’ intent
when they purchased the property. According to this
argument, because the Bottinis intended to either build
a new house or remodel the Cottage at the time they
acquired the property, the baseline must include the
Cottage. The City conceded that notwithstanding the
Bottinis’ intent at time of purchase, there would have
to be some temporal limitations to this baseline. Here,
the Cottage was demolished pursuant to a permit
issued by the City after the City declared the building
to be a nuisance and ordered its removal. It is
undisputed that the time to challenge that permit has
expired. See, San Diego Municipal Code, § 121.0102.
This is the point in time that the baseline no longer
includes the Cottage. Moreover, where, as here, a
demolition permit is not dependent upon the issuance
of a building permit “the demolition of the existing
dwelling constitutes a ‘project’ separate from the
alleged anticipated construction of another building”
and the building permit should be reviewed
independently to determine whether CEQA applies.
Adams Point Preservation Society v. City of Oakland
(1987) 192 Cal.App.3d 203, 207-208; see also Friends of
Juana Briones House v. City of Palo Alto (2010) 190
Cal.App.4th 286, 312 (a “ministerial demolition permit,
arguably followed by a ministerial building permit”
does not “render the approval a discretionary one.”)

App. 69
Consequently, the fact that the Cottage had been
removed was irrelevant to the project under
consideration by the City. The CDP is a separate
project distinct from the demolition of the Cottage.
For the foregoing reasons, the City’s determination
that the project was not categorically exempt is not
supported by substantial evidence. As a result, the
determination was an abuse of discretion. The petition
for writ of mandate is granted. The City is directed to
set aside its decision and re-consider the appeals in
conformance with the views expressed herein.
/s/Katherine Bacal
Judge Katherine Bacal

DATE: 12/15/2014
DEPT: C-69

MINUTE ORDER

Page 4
Calendar No.

App. 70
EXHIBIT B
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF SAN DIEGO
CASE NO. 37-2013-00075491-CU-WM-CTL
[Filed January 26, 2015]
___________________________________
BERNATE TICINO TRUST
)
DATED MARCH 2, 2009,
)
TRUST “3”; NINA M. BOTTINI;
)
and FRANCIS A. BOTTINI, JR.,
)
)
Petitioners/Plaintiffs,
)
)
v.
)
)
CITY OF SAN DIEGO, a municipal
)
corporation; CITY COUNCIL OF
)
THE CITY OF SAN DIEGO;
)
and DOES 1 through 10, inclusive,
)
)
Respondents/Defendants.
)
___________________________________ )
[PROPOSED] PEREMPTORY WRIT
OF MANDAMUS
TO:

RESPONDENTS CITY OF SAN DIEGO AND
CITY COUNCIL OF THE CITY OF SAN DIEGO

The Court having issued a final order granting the
petition for writ of administrative mandamus (“Order”),

App. 71
a true and correct copy of which is attached hereto as
Exhibit “A”.
NOW
THEREFORE
IT
IS
HERERBY
COMMANDED that upon service of this Peremptory
Writ of Mandamus (“Peremptory Writ”):
1. Respondent City Council of the City of San Diego
(“City Council”) shall set aside its adoption of
Resolution Number R-308449, which granted the
Environmental Appeals filed by the La Jolla.
Community Planning Group and La Jolla Historical
Society (“Appeals”), and reconsider the Appeals in
conformance with the views expressed in the attached
Order.
2. Nothing in this Peremptory Writ shall direct the
City Council to exercise its discretion in any particular
way.
3. The Court shall retain jurisdiction over
Respondents’ proceedings by way of a return to the
Peremptory Writ, and this Peremptory Writ shall
remain in effect until the Court determines that
Respondents have complied with CEQA as to the
matters set forth herein.
4. Respondents shall file a return to this
Peremptory Writ no later than 90 days upon service of
this Peremptory Writ.
Dated: _________

__________________, Clerk
By: _____________, Deputy Clerk

App. 72
Dated: 1/26/15
/s/Katherine A. Bacal
THE HONORABLE KATHERINE A. BACAL
JUDGE OF THE SUPERIOR COURT

App. 73
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
CENTRAL
MINUTE ORDER
DATE: 12/15/2014 TIME: 02:38:00 PM

Dept: C-69

JUDICIAL OFFICER PRESIDING: Katherine Bacal
CLERK: Jay Browder
REPORTER/ERM: Not Reported
BAILIFF/COURT ATTENDANT: C. Rice
CASE NO: 37-2013-00075491-CU-TT-CTL
CASE INIT.DATE: 11/13/2013
CASE TITLE: Bernate TicinoTrust Dated March 2,
2009 Trust ‘3’ vs. City Of San Diego [E-File]
CASE CATEGORY: Civil - Unlimited
CASE TYPE: Toxic Tort/Environmental
APPEARANCES
There are no appearances by any party.
The Court, having taken the above-entitled matter
under submission on 12/11/2014 and having fully
considered the arguments of all parties, both written
and oral, as well as the evidence presented, now rules
as follows:
The petition for administrative writ of mandamus, filed
by Bernate Ticino Trust dated March 2, 2009, Trust
“3,” Nina Bottini, and Francis Bottini, Jr. (collectively,
“the Bottinis”) is granted.

App. 74
Preliminary Matters
The parties’ requests for judicial notice are granted,
except for the City’s additional request for judicial
notice stated in its Response. This request does not
comply with the California Rules of Court, is of
questionable relevance and is denied.
Factual and Procedural Background
The Bottinis challenge the City of San Diego’s
determination that their application to construct a
single family residence is not categorically exempt from
review under the California Environmental Quality Act
(CEQA).
The Bottinis purchased the subject property in January
2011. Administrative Record (AR) Vol. 2, Tab 97. At
that time, the property included a structure known as
the Windemere Cottage (the “Cottage”). The Cottage
was constructed in 1895 and moved ½ mile to the
present site in 1927. AR 3:132, p. 1106. The Cottage’s
prior owners nominated the Cottage for historical
designation by the City. The Bottinis withdrew the
nomination in May 2011. Ibid.
In August 2011, the Bottinis asked the City to
determine whether the Cottage was eligible for
historical designation under the Municipal Code. Ibid.
On September 22, 2011, the City’s Historical Resources
Board (HRB) determined not to designate the property
as a historical resource. AR 1: 3; AR 3:174.
That same day, the Bottinis requested that the City’s
Neighborhood Code Compliance Division (NCCD)
determine whether the building was structurally safe.

App. 75
AR 1:12, p. 445. After inspecting the building, on
December 21, 2011 the NCCD declared the structure
unsafe and ordered the Bottinis to obtain a demolition
permit by February 15, 2012. AR 6:492. The Bottinis
obtained a demolition permit the next day. Demolition
was completed by December 30, 2011. AR 5: 365, 366.
In August 2012, the Bottinis applied for a Coastal
Development Permit (CDP) to construct a single family
residence on the property. AR 4:241. In January 2013,
City staff determined the project was exempt under
section 15303 of the CEQA Guidelines (California Code
of Regulations, title 14) pertaining to new construction
of single family residences. AR 4:292. Appeals were
filed by the La Jolla Community Planning Group and
the La Jolla Historical Society. AR 4:297. The City’s
Development Services Department (DSD) prepared a
memorandum addressing the objections and
recommended the City Council deny the appeals. AR 5:
318. Among other things, the DSD stated the
demolition permit was exempt from CEQA because it
was a ministerial act in accordance with the nuisance
determination, the Cottage is not part of the current
project, and the proper baseline for conducting an
environmental review is the condition of the property
at the time of the application, i.e., as a vacant lot. Ibid.
On September 23, 2013 the City Council granted the
appeals. AR 1:1. The City Council determined the
project was not categorically exempt from an
environmental analysis, and it directed City staff to reevaluate the environmental determination with the
baseline for the project set with the Cottage on the site.
The City Council further found that the demolition

App. 76
permit was unlawfully issued while the Cottage was
being considered for listing on the California Register
of Historical Resources.
At issue here is the Bottinis 1st cause of action for
failure to comply with CEQA, the Court having abated
the 2nd cause of action for inverse condemnation
pending the outcome of the CEQA claim. ROA # 56.
Discussion
A. Jurisdiction
The City argues mandamus relief is premature because
there has not been a final administrative decision and
judicial review is not permissible until after the City
conducts a CEQA study. The Court rejected this
argument when it overruled the City’s demurrer. For
the reasons stated in that ruling, the Court has
jurisdiction to decide this petition. See also Association
for a Cleaner Environment v. Yosemite Community
College Dist. (2004) 116 Cal.App.4th 629, 636 (agency’s
preliminary review to determine whether a proposed
activity falls within CEQA is subject to judicial review).
B. Abuse of Discretion
The Bottinis contend that the City Council abused its
discretion in decreeing that the project was not
categorically exempt from CEQA. The issue before the
trial court is whether the agency abused its discretion.
“Abuse of discretion is shown if (1) the agency has not
proceeded in a manner required by law, or (2) the
determination is not supported by substantial
evidence.” Gentry v. City of Murrieta (1995) 36
Cal.App.4th 1359, 1375.

App. 77
Under CEQA, an agency must first determine whether
the project is covered by CEQA. “If the project is
exempt, the process does not need to proceed any
farther.” Guidelines, § 15002, subd. (k)(1). The crux of
this dispute is largely definitional: what is the project?
The Bottinis argue that the project is the new
construction of single family residence on a vacant lot.
Such a project would be categorically exempt. See
Guidelines, § 15303, subd, (a). The City does not
dispute that the Bottinis seek to construct a new single
family residence. It contends, however, that the “whole
of the project” includes the prior removal of the
Cottage, because the lot was created as a result of a
demolition permit that was wrongfully issued.
CEQA defines a “project” as “the whole of an action,
which has a potential for resulting in either a direct
physical change in the environment, or a reasonably
foreseeable indirect physical change in the
environment. . . . ” Guidelines, § 15378; see also Pub.
Resources Code, § 21065. “Whether a particular
activity constitutes a project in the first instance is a
question of law.” Black Property Owners Assn. v. City
of Berkeley (1994) 22 Cal.App.4th 974, 984; see also
California Clean Energy Committee v. City of Woodland
(2014) 225 Cal.App.4th 173, 193 (“The question of
which acts constitute the ‘whole of an action’ for
purposes of CEQA is one of law, which we review de
novo based on the undisputed facts in the record.”)
The City argues that the project baseline was with the
Cottage in place and in the condition as reflected in the
2010 May Historical Report. The record does not
support this assertion. The baseline for a CEQA

App. 78
analysis must be the “existing physical conditions in
the affected area” and reflect the “real conditions on the
ground.” Communities For A Better Environment v.
South Coast Air Quality Management Dist. (2010) 48
Cal.4th 310, 321. The Cottage had been razed pursuant
to a demolition permit eight, months before the
Bottinis submitted their project application. Thus, the
existing condition in this case is an empty lot. The fact
that the City now believes the demolition permit
should never have been issued is immaterial because
the baseline does not consider the level of development
“that could or should have been present according to a
plan or regulation.” Id.
An analogous issue was addressed in Citizens for East
Shore Parks v. California State Lands Com. (2011) 202
Cal.App.4th 549. In that case, the plaintiffs asserted
that the baseline should exclude current conditions
because otherwise the project would be exempt CEQA
review. The Court disagreed, explaining that “neither
the statute, nor any CEQA case, supports plaintiffs’
revisionist approach to the baseline.” Id.at 561.
Instead, “the baseline must include existing conditions,
even when those conditions have never been reviewed
and are unlawful.”
At oral argument, the City argued that this case is less
like Citizens and more like Riverwatch v. County of San
Diego (1999) 76 Cal.App.4th 1428. Riverwatch dealt
with a challenge to an environmental impact review
(“EIR”). It is not analogous to a case like this, where
there is a categorical exemption. However, the
Riverwatch Court did note “the generally accepted
principle that environmental impacts should be

App. 79
examined in light of the environment as it exists when
a project is approved.” Id. at 1453.
The City correctly states that CEQA forbids
segmenting a project to evade CEQA review. See
California Clean Energy Committee v. City of Woodland
(2014) 225 Cal.App.4th 173, 193. At oral argument, the
City asked the Court to focus on the Bottinis’ intent
when they purchased the property. According to this
argument, because the Bottinis intended to either build
a new house or remodel the Cottage at the time they
acquired the property, the baseline must include the
Cottage. The City conceded that notwithstanding the
Bottinis’ intent at time of purchase, there would have
to be some temporal limitations to this baseline. Here,
the Cottage was demolished pursuant to a permit
issued by the City after the City declared the building
to be a nuisance and ordered its removal. It is
undisputed that the time to challenge that permit has
expired. See, San Diego Municipal Code, § 121.0102.
This is the point in time that the baseline no longer
includes the Cottage. Moreover, where, as here, a
demolition permit is not dependent upon the issuance
of a building permit “the demolition of the existing
dwelling constitutes a ‘project’ separate from the
alleged anticipated construction of another building”
and the building permit should be reviewed
independently to determine whether CEQA applies.
Adams Point Preservation Society v. City of Oakland
(1987) 192 Cal.App. 3d 203, 207-208; see also Friends
of Juana Briones House v. City of Palo Alto (2010) 190
Cal.App.4th 286, 312 (a “ministerial demolition permit,
arguably followed by a ministerial building permit”
does not “render the approval a discretionary one.”)

App. 80
Consequently, the fact that the Cottage had been
removed was irrelevant to the project under
consideration by the City. The CDP is a separate
project distinct from the demolition of the Cottage.
For the foregoing reasons, the City’s determination
that the project was not categorically exempt is not
supported by substantial evidence. As a result, the
determination was an abuse of discretion. The petition
for writ of mandate is granted. The City is directed to
set aside its decision and re-consider the appeals in
conformance with the views expressed herein.
/s/Katherine Bacal
Judge Katherine Bacal

DATE: 12/15/2014
DEPT: C-69

MINUTE ORDER

Page 4
Calendar No.

App. 81
EXHIBIT C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
CENTRAL
MINUTE ORDER
DATE: 10/21/2016 TIME: 01:30:00 PM

Dept: C-69

JUDICIAL OFFICER PRESIDING: Katherine Bacal
CLERK: Jay Browder
REPORTER/ERM: Johnell Gallivan CSR#10505
BAILIFF/COURT ATTENDANT: Bryan Bagnas
CASE NO: 37-2013-00075491-CU-TT-CTL
CASE INIT.DATE: 11/13/2013
CASE TITLE: Bernate TicinoTrust Dated March 2,
2009 Trust ‘3’ vs. City Of San Diego [E-File]
CASE CATEGORY: Civil - Unlimited
CASE TYPE: Toxic Tort/Environmental
EVENT TYPE: Summary Judgment / Summary
Adjudication (Civil)
MOVING PARTY: City Council Of The City Of San
Diego
CAUSAL DOCUMENT/DATE FILED: Motion for
Summary Judgment and/or Adjudication City of San
Diego’s Motion for Summary Judgment, Or In The
Alternative, Motion for Adjudication of Issues; and All
Supporting Documents, 08/03/2016
APPEARANCES
Carmen A Brock, counsel,
Respondent,Appellant(s).

present

for

App. 82
Neal A Markowitz and Karen R. Frostrom, counsel, are
present on behalf of Plaintiff.
Now being the time previously set for hearing
Defendant City of San Diego’s Motion for Summary
Judgment, counsel appear as noted above and the
hearing commences.
Appointment of Official Reporter Pro Tempore is signed
and filed.
MISCELLANEOUS MINUTES:
In light of the Court’s ruling on the MSJ below, all
future dates are vacated.
MOTION FOR SUMMARY JUDGMENT:
The Court hears argument.
The Court confirms as modified the tentative ruling as
follows:
The motion for summary judgment, filed by defendant
City of San Diego, is granted.
Preliminary Matters
Plaintiffs’ and City’s requests for judicial notice are
granted.
The Court declines to rule on plaintiffs’ evidentiary
objections and the City’s objections to Karen Frostrom’s
declaration and Exhibits 3-7, 9-11, and 17-19. The
Court need rule only on those objections to evidence
that it deems material to its disposition of the motion.
Code Civ. Proc., § 437c, subd. (q).

App. 83
The City’s foundation and authentication objections to
Exhibits 9-11 and 17-19 ar8 sustained.
Background
This action arises from plaintiffs Nina Bottini and
Francis Bottini’s attempt to construct a home on their
property. The relevant facts giving rise to this action
are set out in the Court’s ruling on the petition for writ
of mandamus (ROA# 79) and the appellate decision in
Bottini v. City of San Diego (Jan. 26, 2016, No.
D067510) 2016 WL 304682.
At issue here are the 2nd cause of action for inverse
condemnation, 3rd cause of action for due process
violations, and 4th cause of action for equal protection
violations. Ex. J [Amended Petition].
Discussion
Inverse Condemnation
The second cause of action alleges that the City
Council’s finding that the issuance of the demolition
permit was a “failure to proceed in a manner required
by law” means the City’s order to obtain the permit and
the finding that the Cottage was a public nuisance are
unlawful. Plaintiffs contend they are entitled to
damages for the delay caused by the City Council
flouting the law and forcing plaintiffs to seek judicial
assistance to correct their unlawful conduct.
The California Supreme Court decision of Landgate,
Inc. v. California Coastal Com. (1998) 17 Cal.4th 1006
is controlling. A legally erroneous decision of a
government agency during the development approval

App. 84
process resulting in delay does not, by itself, amount to
a taking of property. Id. at 1018. Plaintiffs contend that
there was more than simply a government mistake.
They argue the project was categorically exempt from
CEQA review and the City deliberately flouted the law
to achieve the result it wanted.
The subjective motive of the government agency is not
relevant. Id. at 1198. The proper inquiry is whether
“there is, objectively, sufficient connection between the
land use regulation in question and a legitimate
governmental purpose so that the former may be said
to substantially advance the latter.” Id. Reviewing a
project for compliance with CEQA is clearly a
legitimate governmental purpose. Id. at 1028-1029 (the
government’s wrongful application of CEQA
regulations is not a taking; a writ of mandate is the
sole remedy for an agency’s noncompliance with
CEQA). Plaintiffs are not entitled to damages for the
temporary delay in building their house. Accordingly,
the City is entitled to summary adjudication of the 2nd
cause of action.
Due Process
Plaintiffs argue the City violated their right to due
process under California Const. Art. I, § 7 (a) by
refusing to recognize a categorical exemption under
CEQA for single-family residences. See CEQA
Guidelines, § 15303.
The California due process clause “protects only those
property interests or benefits that are conferred by
statute.” Las Lomas Land Co., LLC v. City of Los
Angeles (2009) 177 Cal.App.4th 837, 855. “A benefit is

App. 85
not a protected property interest under the due process
clause if the decision maker has the discretion to grant
or deny the benefit.” Id. at 853; see also Town of Castle
Rock, Colo. v. Gonzales (2005) 545 U.S. 748, 756 (“[A]
benefit is not a protected entitlement if government
officials may grant or deny it in their discretion.”)
Under CEQA, the public agency must conduct a
preliminary review to determine whether a project is
exempt from further review. Banker’s Hill, Hillcrest,
Park West Community Preservation Group v. City of
San Diego (2006) 139 Cal.App.4th 249, 258. Because
the City has discretion to determine whether the
project is categorically exempt, plaintiffs do not have a
property interest conferred by statute. Thus, the City
is entitled to summary adjudication of the 3rd cause of
action.
Equal Protection
California’s due process clause provide that persons
who are similarly situated with respect to the
legitimate purpose of a law must be treated alike under
the law. Las Lomas, supra, at 857. Plaintiffs bring a
“class of one” equal protection claim. To prevail on a
class of one claim, plaintiffs must demonstrate that
(1) they were treated differently from other similarly
situated persons, (2) the difference in treatment was
intentional, and (3) there was no rational basis for the
difference in treatment. Id. at 858.
“A court must reject an equal protection challenge to
government action ‘if there is any reasonably
conceivable state of facts that could provide a rational
basis for the [difference in treatment]’.” Id. (citation
omitted).

App. 86
Plaintiffs argue the City Council was given the CEQA
statute that entitled plaintiffs to an exemption but the
Council intentionally flouted the law when it ordered
the City’s Development Services Department to
conduct a CEQA review, setting the baseline for the
project at when the Cottage was still in existence. As
noted, the City was required to conduct a preliminary
review of the project to determine whether it was
exempt. Plaintiffs obtained a demolition permit and
removed the Cottage while the project was under
review for historic designation. These circumstances
complicated the decision as to the proper baseline for
evaluating the project under CEQA. Plaintiffs’
disagreement with the decision does not demonstrate
a violation of equal protection. “The rational basis test
is extremely deferential and does not allow inquiry into
the wisdom of government action.” Las Lomas, supra,
at 858. Plaintiffs present no evidence that the City
Council intentionally discriminated against them or
that there was no rational basis for the City Council’s
decision. Accordingly, the City is entitled to summary
adjudication of the 4th cause of action.
Because there is no triable issue of fact on any cause of
action, and the Court decided the administrative
mandamus claim, the City is entitled to summary
judgment.
The City is directed to serve notice on all parties within
2 court days of this ruling and to submit a proposed
judgment.
/s/Katherine Bacal
Judge Katherine Bacal

App. 87
DATE: 10/21/2016
DEPT: C-69

MINUTE ORDER
Page 3
Calendar No. 59

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
Central
330 West Broadway
San Diego, CA 92101
SHORT TITLE: Bernate TicinoTrust Dated March
2, 2009 Trust ‘3’ vs. City Of San Diego [E-File]
CLERK’S
CERTIFICATE OF
SERVICE BY MAIL

CASE NUMBER:
37-2013-00075491-CUTT -CTL

I certify that I am not a party to this cause. I certify
that a true copy of the JUDGMENT was mailed
following standard court practices in a sealed envelope
with postage fully prepaid, addressed as indicated
below. The mailing and this certification occurred at
San Diego, California, on 12/23/2016.
Clerk of the Court, by: /s/Jay W. Browder, Deputy
ALBERT Y CHANG
7817 IVANHOE AVENUE # 102
LA JOLLA, CA 92037
ANDREA M CONTRERAS
445 EASTGATE MALL, STE. 400
SAN DIEGO, CA 92121

App. 88
VINCENT J BARTOLOTTA
THORSNES BARTOLOTTA MCGUIRE
2550 FIFTH AVE 11TH FL
SAN DIEGO, CA 92103
CARMEN A BROCK
OFFICE OF THE CITY ATTORNEY
1200 THIRD AVENUE # 1100
SAN DIEGO, CA 92101-4100
DONALD W BRECHTEL
462 STEVENS AVE #102
SOLANA BEACH, CA 92075
G Additional names and address attached.
CLERK’S CERTIFICATE OF SERVICE BY MAIL
Page: 1

App. 89

APPENDIX D
U.S. Const. Amend. 5. Criminal actions—
Provisions concerning—Due process of law and
just compensation clauses.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.
Cal. Const., Art. I § 19. Eminent Domain;
Restrictions; Definitions
(a) Private property may be taken or damaged for a
public use and only when just compensation,
ascertained by a jury unless waived, has first been paid
to, or into court for, the owner. The Legislature may
provide for possession by the condemnor following
commencement of eminent domain proceedings upon
deposit in court and prompt release to the owner of
money determined by the court to be the probable
amount of just compensation.

App. 90
(b) The State and local governments are prohibited
from acquiring by eminent domain an owneroccupied
residence for the purpose of conveying it to a private
person.
(c) Subdivision (b) of this section does not apply when
State or local government exercises the power of
eminent domain for the purpose of protecting public
health and safety; preventing serious, repeated
criminal activity; responding to an emergency; or
remedying environmental contamination that poses a
threat to public health and safety.
(d) Subdivision (b) of this section does not apply when
State or local government exercises the power of
eminent domain for the purpose of acquiring private
property for a public work or improvement.
(e) For the purpose of this section:
1. “Conveyance” means a transfer of real property
whether by sale, lease, gift, franchise, or otherwise.
2. “Local government” means any city, including a
charter city, county, city and county, school district,
special district, authority, regional entity,
redevelopment agency, or any other political
subdivision within the State.
3. “Owner-occupied residence” means real property
that is improved with a single-family residence such
as a detached home, condominium, or townhouse
and that is the owner or owners’ principal place of
residence for at least one year prior to the State or
local government’s initial written offer to purchase
the property. Owner-occupied residence also

App. 91
includes a residential dwelling unit attached to or
detached from such a single-family residence which
provides complete independent living facilities for
one or more persons.
4. “Person” means any individual or association, or
any business entity, including, but not limited to, a
partnership, corporation, or limited liability
company.
5. “Public work or improvement” means facilities or
infrastructure for the delivery of public services
such as education, police, fire protection, parks,
recreation, emergency medical, public health,
libraries, flood protection, streets or highways,
public transit, railroad, airports and seaports;
utility, common carrier or other similar projects
such as energy-related, communication-related,
water-related and wastewater-related facilities or
infrastructure; projects identified by a State or local
government for recovery from natural disasters; and
private uses incidental to, or necessary for, the
public work or improvement.
6. “State” means the State of California and any of
its agencies or departments.

App. 92

APPENDIX E
IN THE
COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION ONE
Civil No. D071670
[Filed November 3, 2017]
___________________________________
NINA M. BOTTINI, FRANCIS
)
A. BOTTINI, JR., and BERNATE
)
TICINO TRUST DATED March 2,
)
2009, TRUST “3”,
)
)
Plaintiffs-Respondents
)
and Cross-Appellants,
)
)
vs.
)
)
CITY OF SAN DIEGO, a municipal
)
corporation, and CITY COUNCIL
)
OF THE CITY OF SAN DIEGO,
)
)
Defendants-Appellants
)
and Cross-Respondents.
)
___________________________________ )
On Appeal from the Superior Court of the State of
California County of San Diego
The Honorable Katherine A. Bacal

App. 93
Superior Court Case No. 37-2013-00075491-CU-TT-CTL
__________________________________
RESPONDENTS’ BRIEF AND
CROSS-APPELLANTS’ OPENING BRIEF
__________________________________
BOTTINI & BOTTINI, INC.
Albert Y. Chang (SBN 296065)
Yury A. Kolesnikov (SBN 271173)
7817 Ivanhoe Avenue, Suite 102
La Jolla, California 92037
Telephone: (858) 914-2001
Facsimile: (858) 914-2002
E-mail:
achang@bottinilaw.com
ykolesnikov@bottinilaw.com
Attorneys for Plaintiffs-Respondents
and Cross-Appellants

App. 94
***
Third, the trial court erred in granting summary
judgment as to the equal protection claim. A reasonable
jury could find that the City Council treated
Respondents differently than any other property owner
applying for a CEQA-exempt construction of a new
single-family residence and by setting an arbitrary
baseline. There is sufficient evidence in the record that
the City’s conduct was intentional and geared to
“punish” Respondents for following the process that the
City itself set forth and mandated.
I. The Trial Court Erred in Granting Summary
Judgment as to Respondents’ Inverse
Condemnation Claim
The Fifth Amendment to the U.S. Constitution
prohibits the government from taking private property
for public use without just compensation. U.S. CONST.
amend. V. The federal takings clause applies to the
States via the Fourteenth Amendment. Lockaway, 216
Cal. App. 4th at 183. “Moreover, the takings clause in
the California Constitution is construed congruently
with the federal clause.” Id. The Fifth Amendment “is
designed not to limit the governmental interference
with property rights per se, but rather to secure
compensation in the event of otherwise proper
interference amounting to a taking.” Lingle, 544 U.S. at
536–37.
The Supreme Court has identified three distinct
categories of regulatory takings. Id. at 538. The first
category is government action which requires a
property owner to “suffer a permanent physical

App. 95
invasion” of his or her property. Id. The second
category includes regulatory conduct that deprives the
owner of “all economically beneficial use” of the
property. Id. These two categories are deemed per se
takings for Fifth Amendment purposes. Id. The third
category encompasses all regulatory takings challenges
that fall “[o]utside these two relatively narrow
categories.” Id.
Courts have long recognized that “government
regulation of private property may, in some instances,
be so onerous that its effect is tantamount to a direct
appropriation or ouster — and that such ‘regulatory
takings’ may be compensable under the Fifth
Amendment.” Id. at 537; see also Kavanau v. Santa
Monica Rent Control Bd., 16 Cal. 4th 761, 773 (1997).
“In Justice Holmes’ storied but cryptic formulation,
‘while property may be regulated to a certain extent, if
regulation goes too far it will be recognized as a
taking.” Lingle, 544 U.S. at 537 (quoting Penn. Coal
Co. v. Mahon, 260 U.S. 393, 415 (1922)).
A. The Trial Court Erred in Concluding that a
Writ of Mandate Is the Sole Remedy for a
Regulatory Taking that Deprives the
Owner of Some, but Not All, Economic
Value of the Property
In Lockaway, the court held that “a temporary
regulatory taking may require payment of just
compensation for the period the taking was in effect.”
Lockaway, 216 Cal. App. 4th at 184 (citing First
English Lutheran Church v. Los Angeles Cnty., 482
U.S. 304, 321 (1987)). “Thus, if a property owner
prevails in an inverse condemnation action, and the

App. 96
regulatory agency elects to withdraw the regulation
that effected the taking, the property owner may
have a right to just compensation for the period
that the regulation was in effect.” Id.; see also
Kavanau, 16 Cal. 4th at 773 (“Even if the agency
withdraws the regulation, the property owner may
have a right to just compensation for the temporary
taking while the regulation was in effect.”); Ali v. City
of Los Angeles, 77 Cal. App. 4th 246, 251 (1999).
Accordingly, the trial court erred as a matter of law
in relying on Landgate to hold that “a writ of mandate
is the sole remedy for an agency’s noncompliance with
CEQA.” See AA03636. Indeed, even Landgate does not
support this blanket assertion. See 17 Cal. 4th at 1017
(observing that the California Supreme Court’s prior
holding that “the sole remedy for government
regulation that effects a taking of property is an
administrative mandamus overturning the regulation
rather than an award of damages” “was repudiated” by
the U.S. Supreme Court in First English, 482 U.S.
304).
B. A Regulatory Takings Challenge in This
Case Must Be Evaluated Under the Penn
Central Standard
In Lockaway, the First District engaged in an
exhaustive analysis of the applicable U.S. Supreme
Court precedent and concluded that “a regulatory
takings challenge that does not fall into [the] two
narrow categories [identified in Lingle] is evaluated
under a set of standards first articulated by the
Supreme Court in Penn Central, 438 U.S. 104.”
Lockaway, 216 Cal. App. 4th at 184; see also Lingle,

App. 97
544 U.S. at 538 (“Outside these two relatively narrow
categories … , regulatory takings challenges are
governed by the standards set forth in Penn Central[,
438 U.S. 104].”).
“The Penn Central inquiry is not a formula but an
ad hoc factual inquiry that weighs several factors for
evaluating a regulatory takings claim.” Lockaway, 216
Cal. App. 4th at 185 (citing Penn Central, 438 U.S. at
124, and Lingle, 544 U.S. at 538). Under Penn Central,
the court looks to three primary factors in conducting
the inquiry: (1) the “economic impact” of the regulation
on the claimant; (2) the extent to which the regulation
interfered with “distinct investment-backed
expectations”; and (3) the “character of the
governmental action.” 438 U.S. at 124; accord
Lockaway, 216 Cal. App. 4th at 185. These Penn
Central factors are “the principal guidelines” for
resolving regulatory takings claims that do not fall
within the two per se categories. Lingle, 544 U.S. at
539.
Notably, under Penn Central, “the question is not
‘whether a regulation of private property is effective in
achieving some legitimate public purpose.’” Lockaway,
216 Cal. App. 4th at 185 (quoting Lingle, 544 U.S. at
542). Instead, “the goal is to assess the magnitude or
character of the burden a particular regulation
imposes upon private property rights in order to
determine whether its effects are functionally
comparable to government appropriation or invasion of
private property.” Id. (quoting Lingle, 544 U.S. at 542).

App. 98
C. The Trial Court Erred in Applying
Landgate Instead of the Test Set Forth in
Penn Central and Lockaway
Landgate was decided before the U.S. Supreme
Court announced its decision in Lingle, 544 U.S. 528,
that held regulatory takings cases that do not fall into
one of two narrow categories are governed by the Penn
Central test. See Lockaway, 216 Cal. App. 4th at 189
(rejecting the county’s reliance on Landgate). In
Landgate, the California Supreme Court acknowledged
the Penn Central factors, but relied on a different test
evolved from language in Agins v. Tiburon, 447 U.S.
255, 260 (1980). In Agins, the U.S. Supreme Court
stated that “[t]he application of a general zoning law to
particular property effects a taking if the ordinance
does not substantially advance legitimate state
interests or denies an owner economically viable use of
his land.” 447 U.S. at 260. Through development of the
case law, the Agins rule evolved into a “stand-alone
regulatory takings test” that focused exclusively on
whether the challenged government action
substantially advanced a legitimate state interest. See
Lingle, 544 U.S. at 542; Lockaway, 216 Cal. App. 4th at
189.
In Lingle, the U.S. Supreme Court expressly held
that “the ‘substantially advances’ formula announced
in Agins is not a valid method of identifying regulatory
takings for which the Fifth Amendment requires just
compensation.” 544 U.S. at 545. As the Court
explained, the “substantially advances” formula is a
due process test which, when used as a takings test, is
“doctrinally untenable” and poses “serious practical

App. 99
difficulties.” Id. at 544. Among other things, that
formula is not a useful tool for identifying a taking
because it “reveals nothing about the magnitude or
character of the burden a particular regulation imposes
upon private property rights.” Id. at 542. Moreover, as
a practical matter, the formula would require courts to
engage in a “means-ends” analysis of government
regulations affecting private property, which is “a task
for which courts are not well suited.” Id. at 544.
Here, the trial court relied exclusively on Landgate
in concluding that Respondents did not have a viable
inverse condemnation claim. See AA03635–03636.
Indeed, the trial court even quoted the “substantially
advances” formula (see AA03636), which (as noted
above) was subsequently rejected by the U.S. Supreme
Court in Lingle. See Lockaway, 216 Cal. App. 4th at
188–89.
In Lockaway, the First District held that “in light of
Lingle, we reject the [c]ounty’s contention that
Landgate establishes an independent test for
evaluating whether government action is a regulatory
taking.” 216 Cal. App. 4th at 189 (noting that since
Lingle was decided, several other courts of appeal
“have questioned whether the Landgate rule remains
viable” (collecting cases)). Similarly, this Court should
reject the City’s and the trial court’s reliance on
Landgate as the exclusive test for evaluating whether
a governmental action amounts to a regulatory taking.
Instead, the proper analysis to be applied in this case
is the Penn Central test. See Lingle, 544 U.S. at 538;
Lockaway, 216 Cal. App. 4th at 184, 189.

App. 100
In any event, even assuming Landgate remains
good law, the rule it sets forth is subject to an
important caveat: “a government agency may not evade
the takings clause by fabricating a dispute . . . or by
otherwise arbitrarily imposing conditions on
development in order to delay or discourage that
development.” 17 Cal. 4th at 1029. Thus, for example,
even when a regulation substantially advances a
legitimate government purpose, if the agency’s
“position was so unreasonable from a legal standpoint
as to lead to the conclusion that it was taken for no
purpose other than to delay the development project
before it,” the action could amount to a taking. Id. at
1024. As the court in Landgate observed, “[s]uch a
delaying tactic would not advance any valid
government objective.” Id.
D. A Reasonable Jury Could Find that All
Three of the Penn Central Factors Are
Satisfied
1. Economic Impact
Under Penn Central, the Court must first consider
the “economic impact” of the Resolution on
Respondents. See 438 U.S. at 124; Lockaway, 216 Cal.
App. 4th at 185. Although not all land use regulations
that adversely impact property interests amount to
regulatory takings, “a government action that
unreasonably impairs the value or use of the property
may be an indication that a taking occurred.”
Lockaway, 216 Cal. App. 4th at 185.
Here, the City Council’s Resolution prevented
Respondents from building any residence on the

App. 101
Property until the conclusion of an expensive and timeconsuming EIR. See AR:1:00001–00005. As a result of
the inability to develop the Property, Respondents have
had to pay a mortgage on a second home in addition to
paying the mortgage on the Property. See AA03484 at
¶ 7. They have also had to incur significant attorneys’
fees and costs. Id. The drain on Respondents’ financial
resources will continue for as long as the City refuses
to comply with the Court’s writ of mandate. Id. Because
Respondents’ Property is in a residential zone, they can
make no use of the Property other than by building a
house on the vacant lot.
In Lockaway, the court found the first factor
satisfied under even less compelling circumstances.
There, the court noted that the county’s action “did not
render the property worthless” and, in fact, left open
“some alternative uses” that “had calculable
commercial value.” 216 Cal. App. 4th at 185.
Nonetheless, the court found the first factor satisfied
because the owner “was fully committed to developing
the storage facility and had already spent significant
resources committing its property to that specific use”
and because the owner “would have incurred
substantial costs to convert the property to another use
after the County had shut it down and would have
suffered a material decrease in its value.” Id.
Here, the City Council’s Resolution did not leave
open “some alternative uses” for the Property that “had
calculable commercial value.” See id. As noted above,
because the Property is in a residential zone,
Respondents can make no use of the Property other
than by building a house on the vacant lot.

App. 102
In any event, just like in Lockaway, Respondents
paid a premium for the Property because they were
assured by the prior owner that they could build a
house of their choosing on the Property. See
AA03482–03483 at ¶ 3; AA03470 (prior owner
advertised that the buyers could “build [their] own
dream home”). Just like in Lockaway, Respondents
have “already spent significant resources” on the
Property. Thus, a reasonable jury could find that the
Resolution had an “economic impact” on Respondents.
See Penn Central, 438 U.S. at 124; Lockaway, 216 Cal.
App. 4th at 185.
2. D i s t i n c t
Investment-Backed
Expectations
The second Penn Central factor requires the Court
to consider the extent to which the Resolution
interfered with Respondents’ “distinct investmentbacked expectations.” 438 U.S. at 124. “A reasonable
investment-backed expectation must be more than a
unilateral expectation or an abstract need.”
Ruckelshaus v. Monsanto Co., 467 U.S. 986, 1005
(1984). Here, as noted above, when Respondents
purchased the Property, they were told that the
Property was suitable for removal of the old structure
and construction of a new home. AA03482–03483 at
¶ 3; AA03470. In reliance on those representations,
even though the old structure on the Property was
uninhabitable and unsafe, Respondents agreed to pay
$1.22 million for the property. AA03482–03483 at ¶ 3.
That is a sizable investment for a property where one
cannot live.

App. 103
In Lockaway, the court found the second factor
satisfied under similar circumstances. There, the
owner “purchased the property only after the County
expressly confirmed that [the owner] could rely on the
[previously-issued conditional use permit] to develop a
storage facility.” 216 Cal. App. 4th at 185–86. After the
expiration date of the prior permit had passed, the
County changed its position and used another
regulation to shut the project down. Id. at 186. The
court concluded that, “[o]n these facts, there is no
denying that [the owner] had a reasonable investmentbacked expectation its project could proceed from the
time it purchased the property in 2000, until the
County changed its position in 2002.” Id.
Similarly, here, not only did Respondents rely on
the prior owner’s statements that they can develop the
Property to “build [their] own dream home” (see
AA03470), but they also relied on the City’s own
process and regulations, which assured them that they
can proceed with the construction of a single-family
residence on the Property. Specifically, as required by
the City, Respondents sought a determination from the
HRB as to whether the Cottage was an historical
resource. AR132:0116; AR318:01997. After holding a
public hearing and personally inspecting the Property,
the HRB did not designate the Cottage as historical.
AR174:01595. Subsequently, Respondents cooperated
with the City’s NCCD in having the Cottage evaluated
to determine whether it was a dangerous and unsafe
structure. See AR12:00445; AR318:01998;
AR107:01062–01063. Following a personal inspection
of the Cottage, the City’s Senior Civil Engineer
declared the Cottage unsafe and a public nuisance and

App. 104
issued a letter to Respondents ordering them to obtain
a demolition permit. AR492:02381–02382. Respondents
complied and submitted an application for a demolition
permit. AR216:01663–01668. Once again, the City
acted by having the City Building Official issue the
demolition permit. AR365:02070; AR366:02071.
A year later, the City’s DSD approved Respondents’
building application and advised Respondents that
their application was categorically exempt from CEQA
review. AR292:01994–01945. When two administrative
appeals were filed, the DSD reviewed all of the grounds
raised in the appeals and advised the City Council that
(1) the Project was properly found to be exempt from
CEQA pursuant to CEQA Guidelines § 15303; (2) the
proper baseline for an environmental review was the
condition that existed on August 22, 2012, when the
application was submitted; and (3) as such, the proper
baseline was a vacant lot. AR318:01995–01999.
All told, just like in Lockaway, Respondents have
followed and complied with each and every demand
imposed by the City. Moreover, on every turn, the City
approved all of the actions, not once indicating that the
demolition permit was improperly issued or that
Respondents cannot develop their property in the way
that they intended. Rather, it was only after the two
administrative appeals were filed that the City Council
— at the urging of Councilmember Lightner (who is a
former officer of LJHS, one of the two appellants before
the City Council) — changed its position and held, ex
post facto, that the issuance of the demolition permit by
the City itself was a failure to proceed in a manner
required by law and that Respondents cannot construct

App. 105
their intended family home without first completing an
expensive and time-consuming EIR. Thus, just like in
Lockaway, a reasonable jury could find that
Respondents had reasonable investment-backed
expectations that they could build their family home on
the Property when they purchased the Property, when
the City issued the demolition permit, and when the
City approved their building application, until the City
suddenly changed its position in 2013. See 216 Cal.
App. 4th at 186.
3. Character of the Governmental Action
The third Penn Central factor requires the Court to
consider the “character” of the City Council’s action.
438 U.S. at 124; Lingle, 544 U.S. at 542. Here, as the
trial court correctly ruled, and as argued in the
Respondents’ Brief with regard to the writ of mandate,
“the City’s determination that the project was not
categorically exempt . . . was an abuse of discretion.”
AA01540.
The law is clear that the Project, which is the
construction of a new single-family residence on a
vacant lot, is categorically exempt from CEQA. The
issuance of a demolition permit a year earlier, which is
a ministerial act, does not change the fact that the
Project is CEQA-exempt. The City’s own staff reached
this correct conclusion in recommending that the City
Council deny the appeals. AR318:01995–01999. Despite
the City’s staff’s recommendation and CEQA’s plain
and unambiguous language, the City Council — at the
urging of Councilmember Lightner — deliberately
flouted the law by setting the baseline a year before
Respondents even acquired the Property and by

App. 106
requiring Respondents to complete an expensive and
time-consuming EIR before they can develop the
property.
In Lockaway, the court found the third factor
satisfied under similar circumstances. The court
focused on what it called the county’s “showstopping Uturn,” by which the county reversed its position and
“took the eleventh-hour position” that plaintiffs’ project
was doomed from the commencement. 216 Cal. App.
4th at 186. “When this trap door closed on [p]laintiffs,
the ‘character’ of the government’s conduct revealed
itself.” Id. Similarly, here, when the City Council
followed Councilmember Lightner’s urging “[t]o do the
right thing” (AR8:00390) by punishing Respondents
with the requirement to conduct an expensive and
time-consuming, but utterly irrelevant and
unnecessary, EIR, the true “character” of the City’s
conduct revealed itself. See Lockaway, 216 Cal. App.
4th at 186.
***
In sum, there is sufficient evidence in the record
from which a reasonable jury could find that the
Resolution had an economic impact on Respondents
and interfered with their reasonable investmentbacked expectations. A reasonable jury could also find
that the City Council did not act pursuant to some
legitimate or bona fide concern, but instead
deliberately flouted the law. Thus, under the Penn
Central inquiry, a reasonable jury could find that the
City Council’s Resolution was a temporary regulatory
taking that required the payment of just compensation.

App. 107
The trial court erred in granting summary judgment on
the inverse condemnation claim.
***

